<html>
<title> - LEGISLATION TO MAKE CARS IN AMERICA SAFER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
               LEGISLATION TO MAKE CARS IN AMERICA SAFER

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CONSUMER PROTECTION AND COMMERCE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2019

                               __________

                           Serial No. 116-56
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 

                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                          ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-723 PDF            WASHINGTON : 2020                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
            Subcommittee on Consumer Protection and Commerce

                        JAN SCHAKOWSKY, Illinois
                                Chairwoman
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
MARC A. VEASEY, Texas                  Ranking Member
ROBIN L. KELLY, Illinois             FRED UPTON, Michigan
TOM O'HALLERAN, Arizona              MICHAEL C. BURGESS, Texas
BEN RAY LUJAN, New Mexico            ROBERT E. LATTA, Ohio
TONY CARDENAS, California, Vice      BRETT GUTHRIE, Kentucky
    Chair                            LARRY BUCSHON, Indiana
LISA BLUNT ROCHESTER, Delaware       RICHARD HUDSON, North Carolina
DARREN SOTO, Florida                 EARL L. ``BUDDY'' CARTER, Georgia
BOBBY L. RUSH, Illinois              GREG GIANFORTE, Montana
DORIS O. MATSUI, California          GREG WALDEN, Oregon (ex officio)
JERRY McNERNEY, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                                CONTENTS

                              ----------                              
                                                                   Page
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Cathy McMorris Rodgers, a Representative in Congress from 
  the State of Washington, opening statement.....................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
    Prepared statement...........................................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
    Prepared statement...........................................     8

                               Witnesses

Susan Clark Livingston, daughter of Dr. James Duane Livingston 
  III and Dr. Sherry Penney Livingston...........................    10
    Prepared statement...........................................    13
    Additional material submitted for the record.................    20
Benjamin R. Nordstrom, M.D., Executive Director, 
  Responsibility.org.............................................    40
    Prepared statement...........................................    42
    Answers to submitted questions...............................   119
Catherine Chase, President, Advocates for Highway and Auto Safety    56
    Prepared statement...........................................    58
    Additional material submitted for the record \1\
    Answers to submitted questions...............................   122

                           Submitted Material

H.R. 3888, the Impaired Driving Study Act of 2019................    92
H.R. 3593, the Hot Cars Act of 2019..............................    94
H.R. 3145, the Protecting Americans from the Risks of Keyless 
  Ignition Technology Actof 2019.................................   102
H.R. 3890, the Combatting Impaired Driving Act of 2019...........   107
Letter of July 22, 2019, from Colleen Sheehey-Church to Ms. 
  Schakowsky and Mrs. Rodgers, submitted by Ms. Schakowsky.......   109
Letter of July 23, 2019, from Suzanne Zitser of Westbrook, CT, to 
  Ms. Schakowsky and Mr. Pallone, submitted by Ms. Schakowsky....   112
Letter of July 23, 2017 [sic], from Doug Schaub to subcommittee 
  members, submitted by Ms. Schakowsky...........................   114
Letter of July 23, 2019, from Nathaniel F. Wienecke, Senior Vice 
  President, American Property Casualty Insurance Association, to 
  Ms. Schakowsky and Mrs. Rodgers, submitted by Ms. Schakowsky...   115

----------

\1\ The information has been retained in committee files and also is 
available as part of Ms. Chase's statement at https://docs.house.gov/
meetings/IF/IF17/20190724/109842/HHRG-116-IF17-Wstate-ChaseC-
20190724.pdf.


               LEGISLATION TO MAKE CARS IN AMERICA SAFER

                              ----------                              


                        WEDNESDAY, JULY 24, 2019

                  House of Representatives,
  Subcommittee on Consumer Protection and Commerce,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:26 a.m., in 
room 2322, Rayburn House Office Building, Hon. Jan Schakowsky 
(chairwoman of the subcommittee) presiding.
    Members present: Representatives Schakowsky, Castor, Kelly, 
O'Halleran, Blunt Rochester, Soto, Rush, Matsui, McNerney, 
Dingell, Pallone (ex officio), Rodgers (subcommittee ranking 
member), Burgess, Latta, Guthrie, Bucshon, Hudson, Carter, and 
Walden (ex officio).
    Staff present: Billy Benjamin, Systems Administrator; 
Jeffrey C. Carroll, Staff Director; Evan Gilbert, Deputy Press 
Secretary; Lisa Goldman, Senior Counsel; Waverly Gordon, Deputy 
Chief Counsel; Daniel Greene, Professional Staff Member; Alex 
Hoehn-Saric, Chief Counsel, Communications and Consumer 
Protection; Joe Orlando, Staff Assistant; Alivia Roberts, Press 
Assistant; Tim Robinson, Chief Counsel; Chloe Rodriguez, Policy 
Analyst; Rebecca Tomilchik, Staff Assistant; Justin Discigil, 
Minority Press Secretary; Margaret Tucker Fogarty, Minority 
Staff Assistant; and Bijan Koohmaraie, Minority Counsel, 
Consumer Protection and Commerce.
    Ms. Schakowsky. The Subcommittee on Consumer Protection and 
Commerce will now come to order. The Chair now recognizes 
herself for 5 minutes for an opening statement.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Good morning and thank you all for attending today's 
hearing on legislation to make cars safer. We continue in the 
subcommittee on our mission to save lives. The number of 
vehicle-related fatalities has been staggering over the last 
several years. In both 2017 and 2018, vehicle-related deaths 
have exceeded 40,000.
    This troubling development means that Congress must act, 
and today we are here to look at bills to address contributing 
factors to this spike in auto-related deaths. One of these 
factors is impaired driving. I thank my colleague Debbie 
Dingell for her leadership on this issue, and I thank Ranking 
Member McMorris Rodgers and Representatives Bucshon and 
McNerney for their initiative to address impaired driving.
    Another factor is uneven or slow deployment of technology. 
Since 1990, over 800 children have died from heatstroke in 
vehicles. In the vast majority of those cases, the adult did 
not realize the child was inside the car. Most of the children 
dying are infants and toddlers, 87 percent are 3 years or 
younger, but adults as well as pets have fallen victim to 
heatstroke as well. Twenty-one children have died already this 
year. Twenty-one. This is unacceptable. We can do better, and 
we must do better.
    This raises the question, How do we prevent heatstroke 
deaths? It is not enough to educate parents about the risks. 
Even the best parents can get distracted. We need safety 
features built into our vehicles. You get a warning when you 
leave your car keys in the ignition. You should get the warning 
when a child is left in the back seat, and that is what the Hot 
Cars Act does.
    The bill, which was introduced with Representatives Tim 
Ryan and Peter King, would require new vehicles to be equipped 
with sensors, sensor technology, to detect the presence of a 
child in the vehicle and notify the driver or parent. This 
safety technology has already been developed, and it is 
available in some vehicles today. A Hot Cars Act will ensure 
that this lifesaving technology is equipped on all vehicles.
    But our auto safety work does not end there. The New York 
Times has identified at least 28 deaths and 45 injuries since 
2006 attributed to carbon monoxide poisoning caused by keyless 
ignition vehicles that were inadvertently left running. Since 
keyless ignition systems do not require drivers to turn off a 
vehicle to remove their key from the ignition, drivers can 
leave their vehicle's--and that is what happens--key fob in 
hand, not realizing that the vehicles are still running. A 
vehicle left running in an attached garage can and has quickly 
filled the living space with lethal levels of carbon monoxide. 
We will hear more about that today.
    The rise in keyless ignition has also exacerbated the 
problem of automobile roll-aways. Unlike traditional ignition 
systems, a keyless ignition system permits the driver to exit 
the vehicle, key in hand, without the car being in park. 
Fortunately, some auto manufacturers, including GM and Ford, 
have responded to these hazards by implementing additional 
safety features, including auto-shutoff systems to prevent 
carbon monoxide poisoning and safeguards that prevent a vehicle 
from shutting down unless the vehicle is in park.
    Still, few automakers seem willing to address these new 
risks to drivers and passengers and pedestrians and property 
from keyless ignition technology. And that is why--let me check 
on the time here, whoops--and that is why I introduced the PARK 
IT Act with my colleagues Darren Soto, Joe Kennedy, and Seth 
Moulton.
    So I thank the witnesses for being here, especially Ms. 
Livingston for being here because she has experienced the 
tragedy of her parents dying. We will hear from her today. It 
takes a lot of courage to be here.
    [The prepared statement of Ms. Schakowsky follows:]

               Prepared Statement of Hon. Jan Schakowsky

    Good morning, thank you all for attending today's hearing 
on legislation to make cars safer. The number of vehicle-
related fatalities has been stagnant over the last several 
years. In both 2017 and 2018, vehicle-related deaths have 
exceeded 40,000.
    This troubling development means that Congress must act. 
And today, we are here to look at bills to address contributing 
factors to this spike in auto-related deaths. One of these 
factors is impaired driving. I thank my colleague Debbie 
Dingell for her leadership on the issue, and I thank Ranking 
Member McMorris Rogers and Representatives Bucshon and McNerney 
for their initiatives to address impaired driving.
    Another factor is uneven or slow deployment of technology. 
Since 1990, nearly 800 children have died from heat stroke in 
vehicles. In the vast majority of those cases, the adult did 
not realize the child was inside the car. Most of the children 
dying are infants and toddlers--87% are 3 or younger. But 
adults, as well as pets, have fallen victim to heatstroke as 
well.
    Twenty-one children have died already this year. TWENTY-
ONE. This is unacceptable. We can do better, and we must do 
better.
    This begs the question--How do we prevent heatstroke 
deaths?
    It's not enough to educate parents about the risks. Even 
the best parent can get distracted.
    We need safety features built into our vehicles. You get a 
warning when you leave your keys in the ignition. You should 
get a warning when a child is left in the back seat.
    That's what the Hot Cars Act does. The bill, which I 
introduced with Reps. Tim Ryan and Peter King, would require 
new vehicles to be equipped with sensor technology to detect 
the presence of a child in a vehicle and notify the driver or 
parent.
    This safety technology has already been developed, and it's 
available in some vehicles today. Our Hot Cars Act will ensure 
that this lifesaving technology is equipped on all vehicles.
    But our auto safety work does not end there.
    The New York Times has identified at least 28 deaths and 45 
injuries since 2006 attributable to CO poisoning caused by 
keyless ignitions vehicles that were inadvertently left 
running.
    Since keyless ignition systems do not require drivers to 
turn off a vehicle to remove their key from the ignition, 
drivers can leave their vehicle--key fob in hand--not realizing 
the vehicle is still running. A vehicle left running in an 
attached garage can quickly fill the living spaces with lethal 
levels of carbon monoxide (CO).
    The rise in keyless ignitions has also exacerbated the 
problem of automobile rollaways. Unlike traditional ignition 
systems, a keyless ignition system permits the driver to exit 
the vehicle--keys in hand--without the car being in park.
    Fortunately, some auto manufacturers, including GM and 
Ford, have responded to these hazards by implementing 
additional safety features, including auto shut-off systems to 
prevent CO poisoning and safeguards that prevent a vehicle from 
shutting down unless the vehicle is in ``park.'' Still, few 
automakers seem willing to address the new risks posed to 
drivers, passengers, pedestrians, and property from keyless 
ignition technology.
    That's why I introduced the PARK IT Act with my colleagues 
Darren Soto, Joe Kennedy, and Seth Moulton.
    I thank the witnesses for their testimony, and now 
recognize the ranking member for 5 minutes.

    Ms. Schakowsky. So now I yield back, and I recognize Mrs. 
Rodgers, ranking member of the Subcommittee on Consumer 
Protection and Commerce, for 5 minutes for her opening 
statement.

      OPENING STATEMENT OF HON. CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. Rodgers. Thank you, Madam Chair. And good morning to 
everyone and welcome to the Consumer Protection and Commerce 
Subcommittee legislative hearing on improving motor vehicle 
safety.
    We lose more than 37,000 lives a year on our roads. We can 
and we must do more to make our roadways safer, especially 
considering most of these accidents were preventable. According 
to the National Highway Traffic Safety Administration, 94 
percent of all accidents are due to human error. These include 
distracted driving, driving drowsy, and driving while under the 
influence of alcohol or drugs.
    Drunk driving remains a significant public health concern 
that tragically cuts life short for too many--not just for 
those who make the reckless decision to get behind the wheel 
after consuming alcohol, but also our family and friends on the 
road in the wrong place at the wrong time.
    Drug-impaired driving is also on the rise. ``If you feel 
different, you drive different.'' It is the new public safety 
message from NHTSA. It means exactly what it says. If you 
consume drugs, you will feel different. If you feel different, 
you will drive different. And if you drive different, you will 
put your life in danger and the lives of those on the road with 
you.
    Whether the drug is illegal or legally prescribed, driving 
while drug impaired is a serious safety threat. According to a 
recent report, in 2016 more than a thousand fatally injured 
drivers, or almost 20 percent of the drug-positive drivers, 
tested positive for opioids in their system. The most frequent 
opioids abused were oxycodone, hydrocodone, morphine, fentanyl, 
and methadone.
    Opioids aren't the only drug making our roads less safe. So 
is marijuana. In fact, marijuana is the most common drug found 
in fatally injured drivers. In 2012, my home State of 
Washington legalized marijuana. According to a recent report 
conducted by the Northwest High Intensity Drug Trafficking 
Area, one in five tenth-graders, one in four twelfth-graders 
reported riding with a driver who had been using marijuana. One 
in six twelfth-graders admitted to driving a vehicle within 3 
hours of consuming marijuana. And the percentage of marijuana-
positive drivers has more than doubled, from 7.8 percent to 
18.9 percent, and fatal crashes involving marijuana have spiked 
to almost 13 percent, up from 7.8 percent prior to 
legalization.
    Recreational use of marijuana poses a serious threat to 
roadway safety. We must learn from the lessons we have seen in 
Washington State and make sure that we are focusing on 
addressing drug-impaired driving and alcohol-impaired driving. 
That is why I, along with Mr. McNerney, have introduced 
legislation to direct NHTSA to study impaired driving to learn 
more about the risk drug impairment poses. Our solution gives 
NHTSA the flexibility it needs to examine the drug-impaired 
driving in the most efficient and effective way possible. It 
allows NHTSA to review methods to detect drug-impaired driving. 
It supports NHTSA's research to review methods to detect drug-
impaired driving and develop impairment standards for driving 
under the influence.
    Our bill will lead to a better understanding of the risks 
and the ways to prevent drug-impaired driving. It will allow 
NHTSA to produce extremely important data that will inform 
decisionmaking on policies that can save lives. We are also 
considering legislation introduced by my colleagues Mr. Bucshon 
and Mrs. Dingell that will authorize money that has been 
appropriated for the last 2 years, 2 fiscal years. Returning to 
regular order and ensuring funds are accounted for by this 
committee is critical. Remember, if you feel different, you 
drive different.
    I would also like to acknowledge that this is the last day 
for Melissa, who has been the head staffer for the Republicans 
on the Consumer Protection and Commerce Subcommittee. And I 
just want to say thanks for her exceptional leadership. She has 
a tremendous depth of knowledge, her strategic thinking, her 
hard work, all to get results on behalf of the many important 
issues before this committee. And although we are going to miss 
her, I just wanted to take this opportunity to recognize her 
and wish her all the best in this next chapter. Thank you, 
Madam Chair.
    Ms. Schakowsky. Thank you. And let me also wish Melissa the 
best of luck and thank her for the service that she has been to 
our committee.
    And now I would recognize Mr. Pallone, the chairman of the 
full committee, for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairwoman Schakowsky, and thanks 
for all you do on these safety issues. I know we reported out 
of the full committee last week a number of initiatives from 
this subcommittee that you are responsible for that, you know, 
to help children and, you know, this continues with your 
constant efforts to help consumers, you know, in so many 
different ways.
    Since 2014, the number of auto fatalities has steeply 
increased after nearly a decade of falling. And despite the 
rising death toll, the National Highway Traffic Safety 
Administration, or NHTSA, has failed to prioritize vehicle 
safety. NHTSA has failed to complete needed rulemakings or 
prioritize resources to address preventable injuries and 
fatalities.
    Where the administration has been slow to act, Congress 
must step in. The bills we are considering today will help 
address preventable tragedies, including child vehicular 
heatstroke, carbon monoxide poisoning, and impaired driving. As 
we learned in May when this subcommittee held the hearing on 
summer driving dangers, 823 children have died from heatstroke 
after being left in hot cars over the last 20 years. And since 
that hearing, 2 more children have died and that is 21 children 
so far this year. No child should lose their life because they 
became trapped in a hot car.
    Fortunately, technologies exist today that can end these 
senseless tragedies, technologies that can alert drivers to the 
presence of a child in a vehicle or remind a driver to check 
their back seat before leaving the car. Regrettably, these 
sorts of lifesaving technologies have not yet been widely 
deployed.
    And I commend the chairwoman and Representatives Ryan and 
King for their work on the Hot Cars Act. This legislation would 
require vehicles to be equipped with safety technologies to 
detect and alert the driver to the presence of a child or 
occupant in the rear seat of a vehicle after the engine has 
shut off. And I look forward to exploring how this 
technological revolution can save lives.
    I also look forward to exploring how we can ensure that 
technological innovations like keyless ignition systems do not 
actually present unintended safety issues. Keyless ignition 
systems provide an added level of convenience for the driver: 
Merely sit in the vehicle and push to start, all with your keys 
in your pocket or bag. But that added convenience has been tied 
to a troubling rise in carbon monoxide deaths, more than three 
dozen since 2006. Without the physical motion of turning a key, 
some drivers inadvertently forget to turn off the vehicle--I 
will include myself among those--and some keyless ignition 
systems permit the engine to continue idling even when the 
driver exits the vehicle with the keys.
    If the vehicle is left in an enclosed area, tragedy can 
ensue as dangerous levels of carbon monoxide build. Such a 
tragedy claimed the lives of Dr. James Livingston and Dr. 
Sherry Penney. I thank Ms. Livingston for testifying today and 
sharing her parents' story, and I again commend the chairwoman 
as well as Representatives Soto, Kennedy, Moulton, Deutch, and 
Gonzalez for introducing the PARK IT Act.
    This legislation would ensure the engine of a keyless 
ignition vehicle automatically shuts off if left idling for an 
unreasonable amount of time. I also look forward to discussing 
two impaired-driving bills. With 10,000 deaths--30 percent of 
all fatal crashes--tied to drunk driving, and troubling 
increases in the rate of drug-impaired driving, we have to 
double down on our efforts to prevent such threats to auto 
safety.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    With more than 40,000 deaths and 4.6 million injuries in 
2017 alone, the chaos and destruction on our Nation's roads has 
reached epidemic levels. And, unfortunately, automobile 
fatalities are on the rise. Motor vehicle death rates have 
steeply increased since 2014, after nearly a decade of falling.
    A crisis of this magnitude demands swift and decisive 
action. Action to deploy innovative, lifesaving crash avoidance 
technologies like automatic emergency braking, forward 
collision warning, and lane keeping support, which hold the 
promise of cutting the number of automobile crashes in half. 
Action to develop technologies that can automatically detect 
when a driver is intoxicated and prevent the vehicle from 
moving. Action to modernize the 5-Star Safety Rating for the 
21st century automobile; enhance recall efforts; and finalize 
over two dozen safety mandates languishing at NHTSA.
    This hearing is the opening salvo in our campaign to bring 
tragedies on our Nation's roads to an end. And we are starting 
with a tranche of bills that will help eradicate some of the 
most devastating auto safety issues, like child vehicular 
heatstroke.
    As we learned in May when this subcommittee held a hearing 
on summer driving dangers, 823 children have died from 
heatstroke after being left in hot cars over the last 20 years. 
Fifty-two last year alone, and 21 children so far this year. 
Since that hearing, 12 more children have perished.
    No child should have their right to life taken from them 
because they become trapped in a hot car. Fortunately, 
technologies exist today that can end these senseless 
tragedies--technologies that can alert drivers to the presence 
of a child in the vehicle or remind a driver to check their 
backseat before leaving the car. Regrettably, these sorts of 
life saving technologies have not been widely deployed.
    I applaud Chairwoman Schakowsky and Congressman Ryan for 
their work on the Hot Cars Act--legislation that would require 
vehicles to be equipped with safety technologies to detect and 
alert the driver to the presence of a child or occupant in a 
rear seat of a vehicle after the engine is shut off. And I look 
forward to exploring how these technological revolutions can 
save lives.
    I also look forward to exploring how we can ensure that 
technological innovations--like keyless ignition systems--do 
not actually present safety issues. Keyless ignition systems 
provide an added level of convenience for the driver--merely 
sit in the vehicle and push to start, all with your keys in 
your pocket. But that added convenience has been tied to a 
troubling rise in carbon monoxide deaths--over three dozen 
since 2006.
    Without the physical motion of turning a key, some drivers 
inadvertently forget to turn off the vehicle. And some keyless 
ignition systems permit the engine to continue idling even when 
the driver exits the vehicle with the keys. If the vehicle is 
left in an enclosed area, tragedy can ensue as dangerous levels 
of carbon monoxide build.
    Such a tragedy claimed the lives of Dr. James D. Livingston 
and Dr. Sherry H. Penney. I thank Ms. Livingston for testifying 
today and sharing her parents' story. And I applaud Chairwoman 
Schakowsky for introducing the PARK IT Act, legislation that 
would ensure the engine of a keyless ignition vehicle 
automatically shuts off if left idling for an unreasonable 
amount of time.
    I also look forward to discussing two impaired-driving 
bills being considered here today. With 10,000 deaths--30 
percent of all fatal crashes--tied to drunk driving and 
troubling increases in the rate of drug-impaired driving, we 
must double down on our efforts to prevent such threats to 
automobile safety.
    I thank our witnesses for testifying this morning, and I 
look forward to the discussion.

    Mr. Pallone. So I want to thank our witnesses, and I wanted 
to yield the remainder of my time to Representative Dingell.
    Mrs. Dingell. Thank you, Mr. Chairman. And thank you and 
Chairman Schakowsky for holding this important hearing today. I 
want to start by talking about the single largest cause of 
traffic fatalities: drunk driving. This is a cause that matters 
to too many families that have been hit and struck by it, the 
most recent in my own community by the Abbas family in January.
    The Abbas family was driving back from a family vacation 
when their car was struck head-on by a drunk driver, and there 
were no survivors. Mother, father, three children needlessly 
killed because someone made the decision to drink and drive. 
July, this month, is the deadliest month for drunk driving. 
Across the country, families and loved ones are repeating what 
our community went through in January.
    It is time. Congress has to step up and do something, and 
do something we will. I am so proud to colead Mr. Bucshon's 
bill that we are considering here today that would authorize 
funds for pilot programs, demonstration projects, and 
innovative solutions to address impaired driving, and I also 
will be introducing legislation of my own later this week. I 
yield back the balance of my time. Thank you.
    Mr. Pallone. And I yield back, Madam Chair.
    Ms. Schakowsky. The gentleman yields back, and the Chair 
now recognizes Mr. Walden, ranking member of the full 
committee, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Madam Chair.
    Ms. Schakowsky. Good morning.
    Mr. Walden. And thanks for having this hearing. Each year, 
tragically, we lose 37,000 people on our roads, in no small 
part due to impaired driving. And, in fact, since January of 
2000, more than 200,000 people have died from impaired driving. 
Now, whether that is alcohol, marijuana, or opioids, the 
consumption of drugs is making our roads less safe and more 
deadly.
    Alcohol-impaired driving remains a serious problem and one 
that cuts far too many lives short, as we all know. But drug-
impaired driving has also taken a hold of our roadways, and to 
be clear, you cannot drive safely if you are impaired. While it 
is illegal to drive while under the influence of marijuana, 
opioids, or any potentially impairing drug, even if the drug 
has been legally prescribed, sometimes it is difficult to 
figure out.
    Driving while impaired by any substance, legal or illegal, 
puts drivers and those who share the road with them in great 
danger. The National Highway Traffic Safety Administration, 
NHTSA, is getting the word out about the dangers of driving 
after consuming drugs through its ``If You Feel Different, You 
Drive Different'' and ``Drive High, Get a DUI'' campaigns, and 
we are appreciative of that.
    Today, we will discuss two measures that will help advance 
NHTSA's efforts to combat impaired driving introduced by 
Representatives Rodgers and Dr. Bucshon. The first bill, the 
Combatting Impaired Driving Act of 2019, introduced by Dr. 
Bucshon and Mrs. Dingell, authorized important funding to NHTSA 
to conduct research on impaired driving, including drug-
impaired driving. The more NHTSA can focus on this issue, the 
more we can learn about its unique challenges and make better, 
more informed public policy decisions.
    The second piece of legislation, the Impaired Driving Study 
Act of 2019, introduced by Mrs. Rodgers and Mr. McNerney, 
directs NHTSA to study impaired driving so we can learn more 
about the devastating effects marijuana- and opioid-impaired 
driving are having on our roads. And coming from a State that 
has legalized marijuana, this is an increasingly important 
issue to overcome.
    The bill is intended to give NHTSA the flexibility it needs 
to determine how best to study this issue and requires NHTSA to 
report to us on the progress of the study as well any findings. 
And under the bill, NHTSA can review different methods to 
detect drug-impaired driving, work with State and local 
partners on State-based drug-impaired driving policies, and 
learn the role in extended drug impairment in motor vehicle 
accidents, and any other issues NHTSA believes necessary to 
examine to combat drug-impaired driving in effective and 
efficient ways.
    So I appreciate the work on that and on, obviously, the Hot 
Cars Act as well.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Good morning, and thank you Madame Chair for holding 
today's hearing focused on auto safety.
    Each year, we lose almost 37,000 people on our roads, in no 
small part due to impaired driving. In fact, since January 
2000, more than 200,000 people have died from impaired driving. 
Whether it be alcohol, marijuana, or opioids, the consumption 
of drugs is making our roads less safe.
    Alcohol-impaired driving remains a serious problem and one 
that cuts far too many lives short. But drug-impaired driving 
has also taken hold on our roadways. To be clear, you cannot 
drive safely if you are impaired. It is illegal to drive while 
under the influence of marijuana, opioids, or any potentially 
impairing drug, even if the drug has been legally prescribed. 
Driving while impaired by any substance--legal or illegal--puts 
drivers and those who share the road with them in danger.
    The National Highway Traffic Safety Administration (NHTSA) 
is getting the word out about the dangers of driving after 
consuming drugs through its ``If You Feel Different, You Drive 
Different'' and ``Drive High, Get a DUI'' campaigns.
    Today, we will discuss two measures that will help advance 
NHTSA's efforts to combat impaired driving introduced by Rep. 
Rodgers and Dr. Bucshon.
    The first bill, the Combatting Impaired Driving Act of 
2019, introduced by Dr. Bucshon and Mrs. Dingell, authorizes 
important funding to NHTSA to conduct research on impaired 
driving, including drug-impaired driving. The more NHTSA can 
focus on this issue, the more we can learn about its unique 
challenges and make better, more informed policy decisions.
    The second bill, the Impaired Driving Study Act of 2019, 
introduced by Ms. Rodgers and Mr. McNerney, directs NHTSA to 
study impaired driving so that we can learn more about the 
devastating effects marijuana- and opioid-impaired driving are 
having on our roads.
    The bill is intended to give NHTSA the flexibility it needs 
to determine how best to study this issue and requires NHTSA to 
report to us on the progress of their study as well as any 
findings.
    Under this bill, NHTSA can review different methods to 
detect drug-impaired driving; work with State and local 
partners on State-based drug-impaired driving policies; learn 
the role and extent of drug impairment in motor vehicle 
accidents; and any other issue NHTSA believes necessary to 
examine to combat drug-impaired driving in effective and 
efficient ways.
    This study will produce critical information necessary for 
us to make policy decisions. Saving lives from impaired driving 
is a bipartisan issue.
    I am hopeful we can continue to work together to advance 
legislation to address this growing crisis of impaired driving 
on our roads.
    Today, I am also interested in learning more about the 
other bills under consideration today, the Hot Cars Act, 
introduced by Rep. Ryan, and the PARK IT Act, introduced by 
Rep. Schakowsky, which seeks to address the threat of carbon 
monoxide poisoning from motor vehicles. It is worth noting that 
last week, we forwarded a bill led by Reps. Kuster and Carter 
to the House floor to incentivize installing carbon monoxide 
detectors in homes in order to help avoid these tragedies no 
matter the source of carbon monoxide.
    Again, thank you for holding today's hearing.

    Mr. Walden. And with that I want to make sure and provide 
plenty of time for Dr. Bucshon to discuss his legislation. With 
that, Madam Chair, I would yield to him.
    Mr. Bucshon. Thank you. And thank you to Chairwoman 
Schakowsky and Ranking Member McMorris Rodgers for holding this 
hearing today.
    Impaired driving is an epidemic across our Nation that 
claims far too many lives each year. Although we continue to 
make headway in addressing drunk driving, drug-impaired driving 
is on the rise. In 2018, 38 percent of drivers killed in 
Indiana tested positive for alcohol, while 45 percent tested 
positive for one or more drugs.
    It is important that we take steps to promote technological 
advancements that help our law enforcement professionals on the 
ground to detect and prevent impaired driving. For that reason, 
I introduced, along with Congresswoman Dingell, H.R. 3890, the 
Combatting Impaired Driving Act of 2019.
    This bill authorizes the Department of Transportation to 
provide funding to support grants and pilot programs that 
create innovative solutions to address impaired driving, 
including alcohol-, opioid-, and marijuana-impaired driving. I 
am glad to see the committee discuss this legislation today, 
and I look forward to hearing from our witnesses on how we can 
eliminate impaired driving and save lives. And I yield back to 
Mr. Walden.
    Mr. Walden. And I yield back.
    Ms. Schakowsky. The gentleman yields back.
    And the Chair would like to remind Members on the committee 
that, pursuant to committee rules, Members' written statements 
will be made part of the record.
    And I would now like to introduce our witnesses for today's 
hearing. We have Ms. Susan Livingston, daughter of Dr. James D. 
Livingston and Dr. Sherry H. Penney. And I just want to give 
again a special thank you to you. In our efforts to save lives 
in this committee and to change laws, we have seen the courage 
of family members who have suffered such devastating tragedies 
come forward, and appreciate that so much.
    We have Dr. Benjamin Nordstrom, executive director of 
Responsibility.org. And Ms. Cathy Chase, president, Advocates 
for Highway and Auto Safety. We want to again thank all the 
witnesses for joining us today. We look forward to hearing your 
testimony. At this time, the Chair will recognize each witness 
for 5 minutes to provide their opening statement.
    Before I begin, I want to explain the lighting system for 
those who may not know it. In front of you is a series of 
lights. The light will initially be green at the start of your 
opening statement. The light will turn yellow when you have 1 
minute remaining, so please begin to wrap up your testimony at 
that point. The light will turn red when your time expires. So, 
Ms. Livingston, you are now recognized for 5 minutes.

  STATEMENTS OF SUSAN CLARK LIVINGSTON, DAUGHTER OF DR. JAMES 
DUANE LIVINGSTON III AND DR. SHERRY PENNEY LIVINGSTON; BENJAMIN 
R. NORDSTROM, M.D., EXECUTIVE DIRECTOR, RESPONSIBILITY.ORG; AND 
  CATHERINE CHASE, PRESIDENT, ADVOCATES FOR HIGHWAY AND AUTO 
                             SAFETY

              STATEMENT OF SUSAN CLARK LIVINGSTON

    Ms. Livingston. Thank you. Good morning, Chair Schakowsky 
and Ranking Member Rodgers, honored members of the 
subcommittee. My name is Susan Clark Livingston. I am the first 
female partner of Brown Brothers Harriman, the private banking 
firm in Boston. I am on the executive committee and board of 
governors of the Investment Company Institute in Washington, 
and honorary consul general to Luxembourg for the Commonwealth 
of Massachusetts. But today I am here as a daughter and as a 
mother.
    I appreciate the opportunity to speak to you about the 
tragic simultaneous deaths of my parents, Dr. James Duane 
Livingston and Dr. Sherry Penney Livingston. They died together 
the evening of this past May 7. Their bodies were found the 
early morning of May 10. I will never forget my sister 
Barbara's phone call to me that morning saying, ``Dad and 
Sherry passed away last night, both of them, from carbon 
monoxide.''
    There are no words for this kind of family tragedy, and yet 
I want the story told. I am here today to tell you that these 
deaths were preventable. They died of indifference. These 
deaths were caused by an automobile design flaw that can be 
fixed at low cost with readily available technology. It is a 
design flaw the car industry and the NHTSA have known about 
since keyless ignitions were introduced in 2006, 13 years ago. 
The truth is, the car manufacturers have failed to install this 
simple fix voluntarily. The NHTSA has failed to institute 
regulations that were proposed back in 2011 to prevent these 
deaths, so we beg you to act so that no other family has to go 
through what ours has experienced.
    As a family, we are still in shock, and we speak of these 
amazing individuals in the past tense. It still feels very 
strange. They are not yet in the ground. They will be buried 
next week on Tuesday, July 30th, at St. James Church in Hyde 
Park, New York--the church of our ancestors and that of 
Franklin Delano Roosevelt--buried together beside my 
grandparents and great-grandparents. We are still in mourning, 
yet the more I learned about the failure of these car 
manufacturers constantly touting the safety of their vehicles 
to properly protect consumers, the more I want to be here 
today, which I know is a busy day in Washington, but to ask for 
your help to get this done.
    Jim and Sherry had a love affair like no other. Married 34 
years, they were inseparable. Dad called Sherry his bride, and 
their love and respect for each other were unmatched. The news 
reports on their deaths referred to them as elderly, but the 
word hardly describes the physical and mental energy of these 
two intellects. Daily aerobics, tennis, swimming, attendance at 
every Harvard Club event both in Sarasota and Boston, season 
tickets to the theater--they were indeed in their 80s, but 
these seniors had so much life and love left in them. We loved 
them. We miss them every day.
    Dad got his Ph.D. from Harvard in Physics at the very young 
age of 23. A brilliant scientist, 25-year research career at GE 
in Schenectady, he had seven patents to his name on alloys that 
are still used in the space program today. He followed Sherry's 
career to Boston, being a feminist, and he was a professor of 
physics at MIT for 22 years. Top-rated professor year after 
year for freshman physics. I liked having him help me with my 
homework. He was an author and avid tennis player, and he wrote 
a space column for The Patriot Ledger. He was a pretty cool 
guy. He was a proud father of three daughters and his only 
granddaughter, Julia Pell Livingston, age 17, who is here with 
me today.
    Sherry, my stepmom, was a driving force of nature. At 4-
foot-10, she punched above her weight. Provost at Yale, first 
woman chancellor of the entire system of University of 
Massachusetts, and chancellor of UMass Boston with 20,000 
students for over 12 years. She ran the Center for 
Collaborative Leadership there until last year. There is an 
endowed chair there in her name. She was my mentor, my role 
model. She was on the board of Boston Edison, now Eversource, 
the JFK Library. The night she died she gave a speech to the 
International Women's Forum in Sarasota entitled, ``Women in 
the 21st Century: Stuck or Unstuck?'' That was the last time 
she was seen alive.
    Dad retired from MIT just 3 years ago, but even after 
retirement he had regular speaking engagements and continued to 
author books. He awaited Sherry's retirement from UMass last 
year. They looked forward to retirement between Sarasota and 
Hingham, Mass, where they had just bought a new oceanfront 
condo. It was built last winter. It looked out over the 
shipyard and the harbor.
    Their bodies were found Friday. They were moving into the 
condo the following Tuesday. Sadly, they never saw it. They 
were looking forward to these final years together, on the 
verge of a new adventure after each working close to 50 years, 
contributing as teachers and wonderful contributors to society.
    They are no longer here to tell us what happened, and 
people ask what happened, but the scenario might go something 
like this. It could happen to anyone. It happened to two 
energetic and lively Ph.Ds. After Sherry's speech, they drove 
back to their condo, they opened the automatic door to the two-
car garage and drove in. Neither of these two were hard of 
hearing. Sherry reminded Jim, ``It is trash night,'' and he 
went over to roll out the garbage can and the recycling bin. I 
know just where those barrels were in the garage.
    Sherry was still in the car. Perhaps the radio is still on. 
You know, the radio can run 4 minutes after a car stops. She 
went to the back seat, took out the briefcase and her speech, 
which we found later on the table in the condo, she entered the 
ground floor condo through the door in the garage and closed 
the garage door. After putting the barrels at the end of the 
drive, Dad entered the condo through the front door just next 
to the garage. The police found the key fob in Sherry's purse 
when they recovered the bodies.
    These engines are quiet. The key fob can be miles away from 
a car once that engine starts running, some of you know. This 
was a flawed vehicle murder weapon. It was missing a basic 
safety feature. The neighbor noticed the barrels--sorry.
    Ms. Schakowsky. Got to wrap up. Go ahead.
    Ms. Livingston. OK, no problem.
    Ms. Schakowsky. Just finish really fast.
    Ms. Livingston. The neighbor noticed the barrels still left 
outside at the curb. And just like Chairman Pallone, I myself 
have also left my car idling. Carbon monoxide overwhelms a 
victim, causes piercing headaches, disorientation, nausea. It 
is not a great way to die. They found my dad's body, his head 
in a pool of blood. The cleaning woman called 9--1--1. They 
determined a hazmat team needed to evacuate the carbon dioxide.
    Ms. Schakowsky. I am going to have to cut off your 
testimony.
    Ms. Livingston. Let me finish. We beg of you to please 
prevent another family from going through this. I know we 
cannot bring Dad back and Sherry back. Our family sky is dark 
after losing these two bright stars, and how many more need to 
die? Can this measure please be passed? Thank you.
    [The prepared statement of Ms. Livingston follows:]
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Ms. Schakowsky. Thank you. I think it sounds like not only 
did you lose precious parents, but they were great 
contributors. And our condolences, I am sure I speak for the 
whole subcommittee, are certainly with you, and that is why we 
are dealing with this today.
    Ms. Livingston. Thank you.
    Ms. Schakowsky. And now let me call on Dr. Nordstrom. You 
are recognized for 5 minutes.

               STATEMENT OF BENJAMIN R. NORDSTROM

    Dr. Nordstrom. Thank you.
    Well, good morning, Chairwoman Schakowsky, Ranking Member 
Rodgers, and all of the distinguished members of the 
subcommittee. I really want to thank you for the opportunity to 
testify today in support of the Impaired Driving Study Act of 
2019 and the Combatting Impaired Driving Act of 2019.
    So my name is Dr. Benjamin Nordstrom. I am the executive 
director at Responsibility.org, and we are a national nonprofit 
that is funded by leading distilled spirits companies to 
eliminate drunk driving and underage drinking. My background is 
that I am a board-certified addiction psychiatrist, I am a 
criminologist, and I also serve as a physician with the U.S. 
Army Reserve.
    I want to applaud this committee for its longtime 
leadership on a whole host of auto and traffic safety issues, 
such as the topics being discussed today, and I really want to 
thank you for keeping focus on impaired driving over the years, 
and that is the topic that I have been asked to speak about. 
Now, my written testimony contains a lot of specific details, 
and in my oral comments what I would like to do is focus on 
three foundational points and then some policy recommendations.
    The first point I want to make is that, while drunk-driving 
deaths have fallen by 50 percent since 1982 and by about 30 
percent since 1991, they have really plateaued over the past 10 
years. And they still account for about a third of traffic 
deaths, and that is around 11,000 deaths a year, each and every 
one of which is completely preventable. And I think, as Ms. 
Livingston's moving testimony points out, it is not just losing 
a life, it leaves a hole in families, it leaves a hole in 
communities, and they are all vitally important.
    The second point I want to make is that drugged driving has 
been increasing at an alarming rate over the past decade. Now, 
it is really hard to give you a specific number about how much 
it has because the data that we have around this are fairly 
limited, but the information we do have is alarming.
    Now, there are no national standards for obtaining 
toxicological data after motor vehicle crashes or impaired 
driving cases, and we know that obtaining these toxicological 
samples and running tests on them is very expensive, and as a 
result a lot of municipalities don't look after they ascertain 
that there is a presence of an illegal blood alcohol 
concentration, so we think that we are undercounting these 
things, perhaps significantly.
    My third foundational point is that increasingly people are 
driving after having used more than one substance. We know this 
from toxicological evidence from people who have died in 
crashes. And the reason why this behavior is so lethal is that 
combining drugs can lead to additive if not multiplicative 
effects on impairment.
    So continued investment in research initiatives to better 
understand the scope of this problem as well as to better 
understand how drugs impair driving is really essential to 
guide not just resource allocation, but also to identify 
effective drug-driving countermeasures. And we fully support 
the proposed legislation to authorize NHTSA to study this issue 
further.
    Drug-impaired driving is different and more complex than 
alcohol-impaired driving, and so a lot of the strategies that 
have been used in alcohol-impaired driving can be applied to 
this. There are going to be some specific policy approaches 
that need to be used specifically for this. So a comprehensive 
approach that includes public education, policy and enforcement 
initiatives is outlined in my written testimony, but we fully 
support the impaired-driving legislation introduced this week 
to authorize NHTSA funding for grants and pilot programs into 
drug-impaired driving prevention efforts.
    So, in addition, the other things that are worth 
considering include supporting the creation of a national 
minimum standard for toxicological investigations in motor 
vehicle crashes and drug-impaired driving cases; allocating 
additional highway safety funds to improve State labs; 
monitoring NHTSA's progress in creating large-scale education 
efforts and then allocating funds appropriately to expand the 
efforts that are deemed effective; using screening and 
assessment in all cases of impaired driving so individual risk 
treatment needs can be identified; researching the effects of 
drugs on driver impairment and expanding the implementation of 
accountability in DWI courts for high-risk offenders; and, 
lastly, requiring the use of interlocks for all DUI offenders.
    In conclusion, this is going to take a comprehensive 
approach that is going to require that we break down some of 
the silos that typically exist between the State and the 
Federal levels and building broader coalitions than we have 
ever had before so that we can reduce recidivism and save 
lives. Thank you very much.
    [The prepared statement of Dr. Nordstrom follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Ms. Schakowsky. Thank you.
    And now let me ask Ms. Chase to take 5 minutes and give her 
statement.

                  STATEMENT OF CATHERINE CHASE

    Ms. Chase. Good morning, Chairwoman Schakowsky, Ranking 
Member McMorris Rodgers, and members of the subcommittee. I am 
Cathy Chase, president of Advocates for Highway and Auto 
Safety. Celebrating our 30th anniversary this year, Advocates 
is a unique and successful coalition of insurers, consumers, 
public health and safety groups dedicated to preventing motor 
vehicle crashes, which are responsible for approximately 100 
deaths and 7,500 injuries each day, on average.
    Thank you for convening this important hearing to address 
issues that will protect and keep families whole. Steps can and 
must be taken to protect children from tragic heatstroke 
incidents in cars, to curb the dangers associated with keyless 
ignition systems, and to reduce impaired driving. We are here 
today because people are not infallible. We are, however, 
inventive. There are current, proven solutions to these issues.
    Tragically, the problem of hot cars has taken the lives of 
at least 21 children this year, including 12 children during 
the short time since this subcommittee held a hearing on this 
issue in May. Moreover, we are in the dog days of summer and 
most of the country just experienced a major heat wave, 
punctuating the need for swift action.
    Neuroscience experts have explained that common 
circumstances such as stress, fatigue, or change in routine can 
all lead to this serious and deadly outcome. Technology is 
available now that can detect the presence of a child in a 
vehicle and alert drivers and caregivers. The ability of the 
system to detect is a critical component, especially since on 
average over 25 percent of vehicular heatstroke deaths happen 
as a result of the child getting into the car on their own.
    I would like to now show a brief video to highlight this 
feature from just a couple companies. I have been told that the 
audio might not work, but I still think it is important that 
you see that the technology is in existence.
    [Video shown.]
    So here, the detection system is in the roof--you can't see 
it--and the alarm system was going off. If you could hear this, 
it is quite loud and there are multiple components. There is an 
audio, a visual, and also an app. In this instance, the child 
is getting into the car unbeknownst to the parents. The dad 
gets out. There is the visual. And now what you can't hear is a 
very loud honking noise because the car detected that the child 
was hiding in the car.
    As you can see from the clips, lives can be saved now using 
technology on the market today which, according to suppliers, 
costs approximately 20 to 40 dollars. And the cost will go down 
even further once it becomes standard equipment as we have 
experienced with other safety technologies like rearview 
cameras and airbags. We commend Chairwoman Schakowsky along 
with Representatives Tim Ryan and Peter King for introducing 
the Hot Cars Act and call on Congress to swiftly enact it.
    Secondly, the invention of keyless ignition systems, also 
known as push-button starts, has resulted in unintended deadly 
consequences. This feature is now standard in nearly two-thirds 
of vehicles sold, up from just over 10 percent in 2008. Without 
needing to turn and remove a key to disengage the vehicle, 
drivers can park their car in the garage, exit the car, and go 
inside their home with their key in hand or handbag, all the 
while thinking they have turned the car off. This scenario can 
lead to a fatal level of carbon monoxide being emitted from the 
parked, running car.
    Stories like this continue to devastate families across the 
country, including Susan who bravely recounted the recent 
deaths of her parents. The PARK IT Act will require new cars 
with keyless ignitions to have an automatic shutoff before 
carbon monoxide can accumulate to a dangerous level.
    Additionally, the legislation would help prevent vehicle 
roll-aways, which happen when a driver exits the car while it 
is still in gear. These incidents can lead to a driver being 
struck by their own vehicle or the car continuing unabated, 
potentially striking objects or people in its path. We applaud 
the leadership of the chairwoman and other cosponsors in 
introducing the PARK IT Act and urge Congress to enact it.
    Thirdly, impaired driving continues to kill more than 
10,000 people every year. My written testimony includes a 
number of actions Congress should take, including getting 
passive sensor technology such as DADSS into cars, 
incentivizing States to lower their BAC laws and enact all 
offender ignition interlock laws, and providing funds to 
accelerate research, training, and solutions to the growing 
problem of drug-impaired driving.
    In conclusion, these remedies address a few of the 
fallibilities of humans. Some claim that driverless cars will 
be the panacea, and we hope they are correct. However, when 
this subcommittee decides to consider driverless car 
legislation, we urge you to require safeguards, including 
minimum performance standards for technologies to protect those 
in AVs and everyone around them. Proven technologies in 
addition to the ones being discussed today such as automatic 
emergency braking, blindspot detection, and lane departure 
warning should be in all new cars now. They will both pave the 
way toward AVs and save lives along the way.
    Advocates looks forward to continuing to work with the 
subcommittee to make cars, drivers, and roads in America safer. 
Thank you so much.
    [The prepared statement of Ms. Chase follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Additional material submitted by Ms. Chase has been 
retained in committee files and also is available as part of 
her prepared statement at http://docs.house.gov/meetings/IF/
IF17/20190724/109842/HHRG-116-IF17-Wstate-ChaseC-20190724.pdf.]
    Ms. Schakowsky. I thank the excellent testimony of all our 
witnesses. So we have concluded the opening statements, and now 
we will move to Member questions. Each Member will have 5 
minutes to ask questions of our witnesses, and I will start by 
recognizing myself.
    So one death may be an anomaly, but over three dozen 
documented deaths prove that keyless ignition systems can be 
deadly and dangerous, and without appropriate safeguards in 
place anyone with a keyless ignition vehicle could be in 
danger. So, Ms. Livingston, you yourself have accidentally left 
your keyless ignition vehicle running--I have done it as well--
for 9 hours while you were at work. Is that right?
    So what I wanted to ask you, though, is if you could 
explain how easy it is for a distracted driver to inadvertently 
leave keys in the ignition and the car running.
    Ms. Livingston. Yes, so in my case I have had it happen 
three times. And I dropped my car off at Wonderland T Station 
to go into Boston and parked my car at Lucky's, an outdoor 
garage, but my radio continued running. I listen to Bloomberg 
on the way to work, and the radio was going. I grabbed my bag. 
I stepped out. There is quite a bit of traffic, by the way, as 
well, so you can't hear the engine.
    I locked the car, and there is absolutely no indication, 
went into work, and when I came back to the car I got in and I 
looked at the dashboard and I thought, wait a minute. I think 
my car is running. And I just felt really lucky I didn't run 
out of gas. And I have heard so many stories now since this 
happened to my parents of other people who came and their car 
had run out of gas.
    One time I did the old valet trick where I valeted the car 
at the United Way Women's Breakfast in Boston, and they took 
the car. I had the key fob in my purse. Went to the breakfast 
and I came out to the valet and waited and waited, and all 
these people were leaving. I was like, I have another meeting, 
where is my car? And they said, ``Oh, you never gave us the key 
fob.'' So again, this has happened.
    And I had a friend who they rented a car, and he drove the 
car up and his son took the rental car from here, from D.C., up 
to New York, and his son got to New York and realized his dad 
still had the key in his pocket. So these are things that 
happen that are inconvenient and annoying, but usually not 
fatal. And I would suggest this happens a lot.
    Now, when there are two-thirds of new vehicles all have 
this keyless technology, we really do need better systems, and 
GM and Ford have embraced it.
    Ms. Schakowsky. Thirty-six deaths that we have documented. 
There may be more that we don't know about.
    Ms. Livingston. There are many more, I am sure.
    Ms. Schakowsky. Exactly. Mistakes obviously should not cost 
lives. Ms. Livingston, should technologies that automatically 
shut off a keyless ignition vehicle if the engine has idled for 
a dangerous period of time be required in all cars, and do you 
support the PARK IT Act?
    Ms. Livingston. Yes, I support the act. And I have noted 
that if the car had run just 30 minutes and turned off, my 
parents would still be alive. I rented a GM down in Sarasota 
when I was cleaning out the condo, which is not an easy job to 
do, and it was so hot. It was 103 degrees, so I understand 
people saying, ``Oh, I want to leave the a/c on.''
    I had to grab papers to go to the lawyer, and I walked out 
of the car and the horn honked. I mean that was a really great 
reminder that I had the key. I intentionally was just running 
into the condo and back. I think these things are so easy to 
install, I can't get my head around why the other car 
manufacturers have just ignored it.
    Ms. Schakowsky. Thank you.
    So I want to switch to a different topic right now. Twenty-
one children have tragically died this year--this is a record--
inside a hot car. A majority of these tragic deaths are 
accidents, distracted parents merely going about their busy 
lives accidentally leaving their children inside a rapidly 
warming car.
    So, Ms. Chase, the technologies exist today that can detect 
the presence of a child left in a car. We saw your video. Why 
is it important, so important, to adopt technologies that can 
detect--I am talking about detection systems now--the presence 
of a child, and why this is an element that is essential?
    Ms. Chase. Thank you for the question. It is so important 
that there is a detection system. First of all, no parent or 
caregiver thinks that this will happen to them. Nobody wakes up 
in the morning and thinks they are either going to leave their 
child unintentionally or that a child will climb into a car, 
but it is happening.
    And we have the technological solutions, especially as you 
mentioned, Madam Chairwoman, the detection system, because that 
can say there is somebody in this car, or a pet, and action 
needs to be taken. If there is just an alarm, that can be 
accomplished with different technologies such as door 
sequencing and it won't detect all of the children that are 
dying now. So we want the effective solution to take place and 
Hot Cars will do that.
    Ms. Schakowsky. Thank you. Time flies, I yield back, and 
now recognize the ranking member of the subcommittee, Mrs. 
Rodgers.
    Mrs. Rodgers. Thank you, Madam Chair.
    Dr. Nordstrom, why is it important for NHTSA to study drug-
impaired driving, including the opioid impairment? Are there 
holes in the data we have today that we could learn more about 
with a targeted study?
    Dr. Nordstrom. Indeed. Thank you for the question. First, 
there are holes in the data, I think, because that really 
speaks to one of the fundamental challenges that we have. When 
we think about the Fatality Analysis Reporting System, which 
looks at drugs that might be present in somebody after a fatal 
car crash, what we see is that the way that is it implemented 
is very different from State to State.
    And it is used in 2 percent of cases in some States, up to 
96 percent in other States, so there is not any uniformity to 
it. And then, furthermore, when the drugs are actually looked 
for, different cutoffs are used as well, and so we get uneven 
reporting and so we are kind of constantly comparing apples to 
oranges. It makes it really hard to know the actual full extent 
of the problem.
    The reason why it is very important is because there are 
large educational holes that probably need to be filled. We 
know that, when it comes to people's beliefs about using 
different medications or different recreational drugs, there is 
not any really clear sense from the population, the using 
community, about what is safe and what isn't safe. And so we 
have to understand the scope of the problem, so then we can 
actually target finding out what kinds of countermeasures we 
need to do and then measure them to see if they are working so 
we know how to allocate those resources in the future.
    Mrs. Rodgers. Good. What do you think is the most important 
aspect to be studying as far as the drug-related impaired 
driving?
    Dr. Nordstrom. So I think that there are a number of things 
that are really important, and I think that a big one is 
looking at the prevalence of things. And so, looking at doing 
things like oral fluid analysis where--and expanding 
opportunities to do that like is being done in Michigan, I 
think, would be very, very important so that we can understand 
what is happening on the roads.
    And then that also leads to, I think, the next thing that 
is really important, which is a very, very good assessment and 
screening for everybody who is found to be driving while 
impaired, so that we can understand what their treatment needs 
are and what their supervision needs are, so that we can 
individualize plans so that we know that we are targeting the 
underlying causes of very lethal criminal behavior.
    Mrs. Rodgers. Great, I appreciate that. Would you share 
with the committee what polydrug use is and what risk it poses 
to the public? Is this an issue that NHTSA should focus on 
during the study in our bill, and if so, how would improving 
data on this issue help State and Federal officials?
    Dr. Nordstrom. Thank you, yes. So polydrug use is just the 
use of more than one psychoactive substance at the same time. 
So that could be alcohol and marijuana, which seems to be the 
most common combination that is being detected in the FARS 
data. But it could also be, you know, cocaine or 
methamphetamine and alcohol or it could be opioids and 
marijuana. It could be lots of different things.
    And the reason why that is very important is, again, those 
substances are going to interact in the brain and create kind 
of unpredictable at this point effects on driving. We know that 
sometimes it is a one plus one equals two, and so people have--
smoke a little bit and do some opioids, and sometimes it is 
actually multiplicative, and so you will get a 1 plus 1 equals 
like a 3 kind of effect out of it.
    And so this is the sort of things that we need to 
understand better in terms of how these drugs affect people, 
and then we also have to be able to communicate that to the 
public so that they know what is safe.
    Mrs. Rodgers. One last question. Based on your experience 
with impaired driving, do you believe it is important to treat 
drug-impaired driving as seriously as driving under the 
influence of alcohol?
    Dr. Nordstrom. Well, I certainly think it is every bit as 
lethal. Now, we know that drunk driving is still far more 
prevalent a behavior, but as people's drug use patterns change 
over time, we are going to see those changes in our statistics 
as well. And it is every bit as lethal, so it deserves as much 
attention.
    Mrs. Rodgers. OK, thank you very much. I yield back.
    Ms. Schakowsky. Thank you. I do want to acknowledge in the 
audience today we have Helen Witty, who is the head of MADD, 
Mothers Against Drunk Driving, who for decades has been helping 
to make our roads safer.
    And now I recognize Chairman Pallone for 5 minutes of 
questioning.
    Mr. Pallone. Thank you, Madam Chair.
    Consumers have an expectation that safety is ingrained in 
every component of their car, even features like keyless 
ignition systems. But I wanted to start out by asking Ms. 
Livingston, were you or your parents aware of the potential 
dangers posed by keyless ignition vehicles, and even if your 
parents were notified of the potential dangers, do you believe 
that that awareness alone would have saved their lives, if I 
can ask?
    Ms. Livingston. No. They were not aware, as far as I know, 
nor was I. And in fact, Sherry purchased this particular car 
based on its safety features. So the keyless ignition has been 
marketed and sold as a convenience without any real 
notification of the potential dangers. I think education does 
help, but as Ms. Chase suggested, humans make mistakes, and I 
still think with a very inexpensive technology we really could 
protect people and save lives.
    Mr. Pallone. Well, thank you. I am not even sure I 
understand how it is a convenience, but whatever, thank you.
    Ms. Livingston. Me neither. It wasn't that hard to turn a 
key.
    Mr. Pallone. I know.
    Ms. Livingston. Do you agree? OK.
    Mr. Pallone. I agree. Ford and General Motors have 
installed technologies automatically shutting off the engine of 
a keyless ignition vehicle if it has idled for an unsafe period 
of time, and Toyota has pledged to do the same with its 2020-
year model vehicles.
    So I wanted to ask Ms. Chase, with industry beginning to 
adopt some of these safety features, why do you think it is 
still important to have a robust Federal standard on the books? 
We always ask the question, Do we need to do this?
    Ms. Chase. We need to do this. And we need to do it because 
these are voluntary measures, and there is no requirement 
without a Federal mandate that this technology that has been 
proven to save lives be in all cars. It is also not happening 
quickly enough. With every passing day we are endangering 
people throughout this country unnecessarily, when there is 
proven technology that can be saving lives.
    Mr. Pallone. Thank you. And vehicle roll-aways are another 
hidden danger tied to keyless ignition systems. With a 
traditional ignition system, a driver is unable to physically 
remove the key from the ignition until the vehicle is in park. 
But with keyless ignition systems, drivers are reporting that 
they can shut off and leave the vehicle with the car still in 
gear.
    So let me again, Ms. Chase, what safeguards can be deployed 
to prevent these sorts of issues with that?
    Ms. Chase. And I am sorry, Mr. Chairman. Are you talking 
about the roll-away issue?
    Mr. Pallone. Yes, the roll-away.
    Ms. Chase. So the PARK IT Act would solve this problem. 
There are five conditions that if a car isn't in park, if the 
door is open, if the driver is out, then the car will be 
stopped. And this is essential legislation that should be 
passed expeditiously, and that is a really hard thing to say.
    But we really thank you for your leadership. And when we 
know that people are dying when there is a solution at hand, it 
is all the more tragic, so let's get this technology into cars. 
We urge Congress to take immediate action on the PARK IT Act as 
well as the Hot Cars Act to stop these preventable fatalities.
    Mr. Pallone. Again, thank you, because I think we really 
should spare no expense to protect our Nation's kids.
    Ms. Chase, again, how expensive is the technology used to 
detect the presence of a child in a vehicle and alert the 
driver or parent?
    Ms. Chase. I have spoken with a few of the suppliers, and I 
have heard that it can range from 20 to 40 dollars. But the key 
of that is, once they are required as standard equipment, we 
all know that the price significantly goes down. So that is why 
this legislation is so essential, to get it as standard 
equipment into all cars.
    Mr. Pallone. Now, we know that during our May hearing, Mr. 
Harrison shared the heartbreaking story of the death of his 
son, Chase, who tragically died after being accidentally left 
in a hot car. So let me go back to Ms. Chase. Do you believe 
that Mr. Harrison or any of the hundreds of other parents who 
have lost a child to vehicular heatstroke would have been 
willing to pay for these technologies?
    Ms. Chase. Absolutely. Miles's story is heart wrenching. We 
worked very closely with him and KidsandCars.org and all of the 
incredibly brave families that come up to Congress, who have 
been coming for years, and talk about the worst thing that has 
ever happened to them and their families over and over again. 
It is time for this technology to be put in all cars now.
    Mr. Pallone. Just let me ask one more question. Do you 
believe that child detection technologies are sophisticated 
enough to accurately and reliably detect the presence of a 
child in the vehicle?
    Ms. Chase. I do believe that. And in fact, we are working 
on holding another demonstration so that all Members of 
Congress and members of the public can come see how this 
technology works. We had one a couple months ago, and we are 
going to keep showing this technology, which gets better and 
better over time. But we believe that it is there now. And we 
also know that the rulemaking process takes some time, so 
what--that period of time, technology will continue to evolve. 
When we are talking in the same breath about driverless cars, 
certainly we can get a detection system into cars.
    Mr. Pallone. Thank you. Thank you, Madam Chair.
    Ms. Schakowsky. I now recognize Mr. Latta for 5 minutes for 
his questions.
    Mr. Latta. Well, thank you, Madam Chair. And thank you very 
much for our witnesses for being with us in today's hearing.
    Dr. Nordstrom, in your testimony you spoke about the need 
to implement a comprehensive approach that includes innovative 
solutions to eliminate impaired driving. Two of the bills that 
we are discussing today aim to improve motor vehicle safety and 
prevent impaired driving. In addition to these proposals, I 
believe we should also be examining and encouraging the 
deployment of self-driving technologies, which have the 
potential to save tens of thousands of lives that are lost 
every year to impaired driving. Over 10,000 people lost their 
lives in 2017 in alcohol-impaired driving crashes.
    We have also seen a significant increase in the number of 
American drivers killed in vehicle crashes in which drugs were 
detected. According to the Governors Highway Safety 
Association, in 2016 the number of drivers who were fatally 
injured in accidents with drugs in their systems surpassed the 
number of those with alcohol in their system for the first time 
ever.
    Ninety-four percent of the accidents are attributed to 
human error, including through impaired driving. These 
statistics are staggering and show that we must work together 
to prevent more tragedies. And that is why last Congress I 
introduced the SELF DRIVE Act, which would have clarified the 
Federal and State rules in regulating the self-driving 
vehicles, ensured consumer safety, reduced traffic-related 
fatalities and injuries, and improved mobility for individuals 
with disabilities.
    This legislation also included legislation from a previous 
version of our chair, Chair Schakowsky's, legislation to 
prevent the tragedies we heard about today when a child is left 
in a hot car. The SELF DRIVE Act passed unanimously out of this 
committee and on the floor, and I hope that we and our Democrat 
colleagues will continue to work with me to make this a 
priority again.
    Self-driving cars are our future, and without congressional 
action the U.S. will be at a competitive disadvantage and 
Americans will lose out in its lifesaving benefits. We have 
this opportunity to work towards ending senseless deaths on our 
roads by making investments in our vehicle technology.
    So, Dr. Nordstrom, have you considered the self-driving 
vehicles as a component of the comprehensive approach to 
addressing impaired driving?
    Dr. Nordstrom. So thank you for the question. I think you 
are absolutely right. I think that there is a lot that will be 
gained when we get there, and I think that it is, you know, 
that could be a massive boon for saving thousands of lives on 
American roadways. The challenge is, it is going to take a 
while to get there.
    And so, in the meantime, you know, I am very heartened to 
see the time and attention this committee is putting into all 
of the incremental steps between now and when we finally get to 
where you are describing so that we can save as many lives as 
possible in the interim.
    Mr. Latta. OK, so I just want to make sure. So in your 
studies right now you haven't been taking in the thought of 
driverless technologies, or you have been considering it as you 
are doing the research?
    Dr. Nordstrom. Well, I think that, you know, we see that as 
something that is pretty far in the future for us, and 
especially when you think about the way that the fleet is going 
to turn over for the--that when we think about this and how we 
are going to sort of allocate our efforts, we are concerned 
about the nearer term.
    So, even though I completely agree with you that that is 
ultimately something that I think is going to be perhaps even 
sort of solving the problem definitely, until we get there, we 
have to be doing these other things.
    Mr. Latta. OK. If I could just follow up with another 
question. You focused on increasing dangers of drivers being 
impaired by opioids across the country, and especially in my 
home State of Ohio the opioid and drug addiction crisis has 
devastated our communities. And you pointed out that the 
Government, especially the FDA, can do more to increase 
awareness of the safety risks of driving while impaired by 
opioids.
    What are some of the ways that the FDA can do this, and how 
can the Federal Government, in general, help to improve the 
understanding of opioid-impaired driving?
    Dr. Nordstrom. So it is a great question, and I think that 
ultimately one of the things that we really need to do is have 
much better efforts at educating physicians on how to talk to 
patients about risk when they are prescribing and also to talk 
with pharmacists about how to talk about risks when they are 
dispensing to people.
    I can tell you from having been in clinical practice for 
years, the number of patients who would express surprise when I 
would tell them, ``Do not drive after you start taking this 
medication until you know exactly how it affects you, and it is 
going to take several days for you to know that.'' They would 
say, ``Well, nobody has ever told me that before.''
    And it is the kind of thing that we really need to be 
pushing so that people understand what these risks are, because 
I think that there is a lot of this that people just kind of 
assume that, if their doctor or pharmacist isn't saying 
something or if they are just putting a little sticker on the 
bottle, it must not be that serious, and it really is. So I 
think we need to be doing more in terms of educating.
    Mr. Latta. Well, thank you very much.
    Madam Chair, my time has expired, and I yield back.
    Ms. Schakowsky. The gentleman yields back. I now recognize 
Congresswoman Dingell for 5 minutes for questions.
    Mrs. Dingell. Thank you, Madam Chair.
    As I mentioned, this week I will be introducing a bill that 
calls for commercializing and standardizing a passive alcohol 
detection system. This technology needs to be the standard in 
all new vehicles, and it will save 7,000 to 10,000 lives every 
year. It also calls for a significant field test and a 
reasonable rulemaking process leading towards making driver-
impaired technology a Federal standard. I hope my colleagues 
can join me in supporting this measure, and I ask the 
chairwoman if she would consider another hearing in September 
when the legislation is introduced.
    Ms. Schakowsky. Yes.
    Mrs. Dingell. Thank you, Madam Chair.
    I am a car girl, everybody knows that. And I believe the 
U.S. auto industry is home to some of the best and the 
brightest engineers in the world. They have solved complex 
problems, and they are working on new and amazing safety 
features all the time, and we all agree that we need to see 
some of them put on the vehicles themselves.
    You know, Frank asked, Do we need regulation. Well, 
unfortunately, sometimes we do, and here is an example of when 
we do. It is just when it comes to advancing technology in 
vehicles that will prevent those who drink and drive, like the 
driver alcohol detection system for safety, we have got to get 
it done faster, because if the technology was in use today, the 
Abbas Stop Drunk Driving Act and legislation wouldn't be 
necessary.
    So I want to first ask a couple of questions on DADSS, 
because we have been hearing about this program for so long, 
before I ever got to Congress, to tell you the truth. And while 
we know there is room for improvement, we really need to get 
this technology tested at scale in front of consumers so we can 
start saving lives.
    Dr. Nordstrom, these questions are for you. Do you have an 
estimate on how many vehicles the DADSS program currently is 
being tested on?
    Dr. Nordstrom. I don't know right off the top of my head.
    Mrs. Dingell. Can you get that for the record, please?
    Dr. Nordstrom. Yes.
    Mrs. Dingell. And in your opinion, what is needed to 
finally--it is not a lot though, is it?
    Dr. Nordstrom. No, ma'am.
    Mrs. Dingell. It is like a minimal. But could you, just so 
that--I know what it is, but can you give other people a sense 
about of how many vehicles it is really being tested on?
    Dr. Nordstrom. I think it is just a handful, ma'am.
    Mrs. Dingell. Right, thank you. And in your opinion, what 
is needed to finally move this technology from the lab and that 
limited field testing to something that can be placed in 
vehicles and fleet-tested on a larger scale?
    Dr. Nordstrom. Well, from my understanding, it is 
additional money in order to get the technology to finish the 
development of it and to start putting it into vehicles.
    Mrs. Dingell. It is only money?
    Dr. Nordstrom. Well, money and time.
    Mrs. Dingell. Do you think this technology--I shouldn't say 
only money. Money does matter. Do you think this technology 
would be ready for a fleet test of 1,500 cars by 2020?
    Dr. Nordstrom. Yes, I am being told by the end of 2020 we 
could expect that.
    Mrs. Dingell. OK. I want to change my focus and ask a few 
questions about mandatory first-offender interlocks. In States 
that have mandatory first-offender interlock laws, have you 
seen a reduced number of alcohol-related fatalities?
    Dr. Nordstrom. Yes, ma'am.
    Mrs. Dingell. Do you have a sense for the cause of the 
resistance from States that haven't implemented that mandatory 
first-offender law?
    Dr. Nordstrom. So, from my conversations with people, you 
know, the things that we kind of hear about are that there are 
very frequently difficulties, especially in States that are 
fairly rural, that getting people to places where they can get 
those interlocks installed is difficult. And then the other 
thing that we frequently hear is difficulty getting them put in 
for indigent people.
    Mrs. Dingell. OK. And one last one, Dr. Nordstrom. If a 
police officer is out on patrol and sees someone swerving all 
over the road, they hopefully will pull that person over, 
because from the outside the car impaired driving tends to look 
the same. It could be a sleepy driver. They could be drunk, 
high--I share my colleagues' concerns about marijuana--texting 
distract, or any combination of these.
    Do you think that law enforcement is generally in need of 
more resources for enforcement of impaired driving?
    Dr. Nordstrom. Yes, ma'am. I definitely do.
    Mrs. Dingell. Thank you.
    Madam Chair, thanks for holding this hearing again, and I 
hope we are going to stay very focused on this issue, and I 
yield back.
    Ms. Schakowsky. The gentlelady yields back, and Mr. 
Guthrie, I think, is next. Am I right? Yes.
    Mr. Guthrie, you are recognized for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chair. I appreciate the 
opportunity, and thanks for having this hearing.
    Thanks for being here and sharing your story, and thanks 
for being here and sharing your expertise and your advocacy. 
One of my big concerns--and I am really glad we are pursuing 
the technology that affected your family, Ms. Livingston, but 
also one of the concerns that I have had is impaired driving, 
particularly as some States are making the decision to allow 
people to use marijuana. And I think that encourages young 
people to say it is OK, you know, I mean that for some reason 
it is, and that is just my belief.
    And so, the question I hear from law enforcement people, 
just the difference is that, when you see impaired driving, the 
difference is you can do a blood test, a sobriety test with 
alcohol that you really can't do with marijuana. And so, as 
more people are doing it, because it is being--the word not 
encouraged, but saying it is OK, by the State saying it is OK 
to do, then more people are doing it.
    So, Dr. Nordstrom, just the differences between drunk 
driving and--or just impaired driving, one by alcohol and one 
by, I will just say marijuana, I know there are other people 
and have other--and how--I know there is a study underway from 
NHTSA to try to differentiate and how you can test for that in 
the field test. Could you explain what is going on and how we 
could explore further?
    Dr. Nordstrom. So the challenge with alcohol versus 
cannabis, you know, it is that alcohol is very, very well 
studied at this point. It follows a pretty clear dose/response 
curve that, when people drink a certain amount of standard 
drinks, their blood level will rise a predictable amount.
    Alcohol metabolism follows something called zero order 
kinetics, which means that a very predictable amount is removed 
over time, and it is just a much more sort of knowable field. 
When it comes to cannabis and THC, which is the psychoactive 
component in cannabis, that dose/response curve is much 
trickier to estimate.
    That the thing that is also difficult is the amount of THC 
in any given product varies wildly. The root of administration 
changes, whereas all alcohol is basically swallowed. Sometimes 
people are smoking, sometimes people are swallowing and, you 
know, orally ingesting cannabis products, so it is very, very 
hard to know when the levels are going to rise, and then the 
metabolism is different.
    The other thing that is different is in alcohol we know 
that a certain blood level corresponds to a certain level of 
impairment. We don't have that same clear predictability when 
it comes to blood levels----
    Mr. Guthrie. Because you still have THC in your system but 
not be impaired, right, because it lingers in your system 
longer?
    Dr. Nordstrom. So, well, THC itself will--it is always 
going to be intoxicating, that is psychoactive and one of the 
first metabolites. So one of the first breakdown steps in THC 
is still active, eventually you get to an inactive form and 
that inactive form stays around much longer than the active 
forms do.
    Mr. Guthrie. So you know when the active and inactive, and 
active is what is intoxicating.
    Dr. Nordstrom. So that is what is important.
    Mr. Guthrie. It is impairment----
    Dr. Nordstrom. For our purposes that is what is important 
to measure for impairment.
    Mr. Guthrie. What is the field test, field sobriety, 
because if a police officer suspects alcohol or smells it or 
whatever, they can do a field test to see if they are impaired, 
then they go to the more--tests, if you are going to do 
something in court, I am sure you have to go further than that.
    Does the field tests--can you tell an impaired driver with 
cannabis as you can with----
    Dr. Nordstrom. Well, to Congresswoman Dingell's point, when 
somebody is weaving around the road, that is the first 
indication. When they pull them over and they are acting 
impaired but they don't smell alcohol, they do a portable 
breath test and it is negative, then this is where it gets 
tricky. If they are not a specifically trained drug recognition 
expert, they might not know necessarily what to look for.
    Mr. Guthrie. So the walking heel-to-toe, touching your 
nose, with your eyes, because that kind of stuff wouldn't be 
the same effect as alcohol?
    Dr. Nordstrom. They could do those field sobriety tests and 
say, ``Yes, this person is impaired'' but not be able to detect 
alcohol. So they will say, ``Well, something is up,'' and that 
is where the oral fluid testing can be very useful. For 
somebody who hasn't gone through all the rigorous training to 
become a drug recognition expert, they could at least test oral 
fluid and then say, ``OK, this person does have THC or its 
active metabolite present in their system,'' and then you can 
start building probable cause for building a more kind of 
comprehensive that the person is driving under the influence of 
cannabis.
    Mr. Guthrie. And I am sure that is inconsistent across 
police jurisdictions about how that is applied or not applied?
    Dr. Nordstrom. Yes, sir. Yes. There is not a standard 
approach. It is not--that oral fluid testing has not really 
been built into standard operating procedure anywhere in the 
United States, as far as I know.
    Mr. Guthrie. Because there is no jurisdiction that does it 
now?
    Dr. Nordstrom. Not as part of SOP, sir.
    Mr. Guthrie. OK.
    Dr. Nordstrom. But it has been done in, I believe, Canada 
and Australia. There is precedent.
    Mr. Guthrie. OK, so there are some places that we could 
study to see how it works and how it moves forward.
    Dr. Nordstrom. Yes, sir.
    Mr. Guthrie. Well, thanks for that. And I know it is very 
concerning, and thanks for all of you for being here today. I 
appreciate it very much, and I yield back.
    Dr. Nordstrom. Thank you, sir.
    Ms. Schakowsky. The gentleman yields back, and now I 
recognize Mr. Soto for 5 minutes.
    Mr. Soto. Thank you, Madam Chairwoman.
    You know, as technology increases in vehicles, we in 
Congress have to keep up with those changes. And, while it is 
so exciting to have vehicles that are keyless and others that 
turn off and on for energy efficiency and others that will be 
plugged in, this committee's work is going to have to continue 
to make sure that we are doing the things we do to keep people 
safe.
    And we hear every week different issues that we have to 
work on, and I am really proud to be part of a lot of these 
bills to help increase vehicle safety, particularly joining our 
chairwoman, Seth Moulton, and Congressman Kennedy, as well as 
Congressman Moulton and dealing with issues in the PARK IT Act 
of the risks of keyless ignition technology.
    I wanted to first start by asking Ms. Livingston, How 
important is this bill to protect our seniors, to protect our 
children, and other vulnerable populations?
    Ms. Livingston. Thank you for the question. I think it is 
essential. I can't believe keyless ignition has been around for 
over 10 years and we don't have a regulation. The auto industry 
sometimes represents, ``Oh, we will do it on our own 
voluntarily,'' has not happened. We need the legislation as 
soon as possible.
    Two more people have died since my parents died in May, and 
it is not just elders. There was a young 20-year-old woman who 
died and, sadly, her fiancee survived. Sometimes it is worse to 
survive carbon monoxide. But we definitely need a law. NHTSA is 
looking for leadership from Congress on this.
    Mr. Soto. Do you think most consumers are aware right now 
of the dangers of a car remaining on in a keyless ignition 
scenario?
    Ms. Livingston. I don't think so. I don't think my parents 
knew. I know I wasn't really aware of it other than the fact 
that I had left my car a few times when it was still running, 
and I couldn't hear it. And I think this--so a little confusion 
on terminology, but the auto-stop to save gas, as you 
mentioned, a number of cars, when you get to a red light, the 
car engine stops, so people think that the engine is off.
    I think very few people are aware, and a number of people 
after the story came out on my parents mentioned to me that 
they had never heard of it, and then more and more stories come 
out. We need to do something to protect consumers.
    Mr. Soto. Thank you for that. And it is part of the initial 
theme which is, you know, all these things are progressing, but 
it is the Federal Government's responsibility with these types 
of progress that are in interstate commerce to make sure they 
are safe. People assume we are doing our jobs and today this is 
part of that.
    Ms. Chase, how important is the Hot Car technology, and a 
similar question: Are people aware that this threat is out 
there, in your opinion?
    Ms. Chase. The Hot Car technology is essential because, 
with every passing day and it is hot outside, and by the way 
this still happens when it is not so hot out. It can happen 
when it is 60 degrees outside. Children are at risk, and we 
have a proven solution that there is a detection system and 
alarm system. There is no reason why this shouldn't be in all 
cars today.
    Mr. Soto. And do you think people are aware of this risk, 
particularly if it is 60 degrees out, who would really think 
that that could be a risk?
    Ms. Chase. You know, I think there is some awareness but 
not enough. And nobody wakes up and thinks, oh, I might leave 
my child in the car today. And this happens especially when 
there is a change in routine where Mom is usually the one who 
drops off the child at daycare, but Mom is out of town on a 
business trip, so Dad is doing it today. And say Dad is driving 
to work--we all kind of go on auto pilot in a sense, and you 
start thinking about something at work or you get a call which 
you shouldn't answer, but people do, and then you get 
distracted and you forget there is a sleeping baby, rear-
facing.
    There is no indication, really, there is no sound, there is 
no movement. There is technology there that can solve this 
problem. It is not the fault of the parents.
    Mr. Soto. Well, and I am glad you mentioned that, because 
that is what I would like to end on. The fact that we have this 
increasing technology to help with some of the new issues that 
other technology causes, it gives me hope that we are going to 
be able to resolve these issues and prevent the kind of 
tragedies that you all saw with your own eyes with your 
families. So thanks for being here today, and thanks for your 
courage.
    Ms. Schakowsky. The gentleman yields back, and I now 
recognize Mr. Bucshon for 5 minutes.
    Mr. Bucshon. Thank you, Madam Chairwoman. I just had a hot 
car death in my district about a week and a half ago, 3 years 
old, was apparently asleep. So this is--it has been devastating 
for the family, but also for the community of Evansville, 
Indiana, to realize that these things do happen. And the parent 
was a responsible parent, it just happens. So I am glad the 
committee is working towards addressing that particular issue. 
I think it is important.
    You were talking, Dr. Nordstrom, about THC and impairment. 
As you know, opioid abuse is out there, but also just using 
opioids for legitimate purposes. And you mentioned, I think, in 
your testimony that because of that rise that there is a huge 
opportunity for healthcare providers--and I was a physician 
before I was in Congress--healthcare practitioners to address 
opioid-impaired driving.
    Can you further expand on the opportunities available and 
how education plays a role and how physicians can help?
    Dr. Nordstrom. Absolutely, and thank you for the question, 
sir. You know, I am sure as you remember from being in 
practice, very frequently you will see people whose medications 
get added to, they are seeing a number of different specialists 
and sometimes people aren't always thinking about medication 
interactions, especially when it comes to sort of cumulative 
effects on alertness.
    Mr. Bucshon. Yes.
    Dr. Nordstrom. So I think one thing that is very important 
is to be making sure that we are educating physicians about not 
just kind of the pharmacodynamic interactions, so how the drugs 
relate to each other chemically, but then the pharmacokinetic 
actions but also the pharmacodynamic interactions which----
    Mr. Bucshon. So it could be, I mean there could be some 
impairment with medications that are not opioid-related, right?
    Dr. Nordstrom. Of course. Yes, sir.
    Mr. Bucshon. You could have a couple medications that cause 
reactions that would result in impaired driving that are not 
traditionally thought of as being--causing impairment?
    Dr. Nordstrom. Absolutely, sir.
    Mr. Bucshon. So that is where pharmacies come into play 
too, right?
    Dr. Nordstrom. And this is where, yes, that there has to be 
sort of levels of intervention here, where if the physician 
forgets or doesn't have the conversation, that the pharmacist 
does. Because somebody is on an antihistamine that is sedating, 
you know, that is going to potentially affect their ability to 
drive, same as a benzodiazepine, the same as an opioid.
    Mr. Bucshon. Right.
    Dr. Nordstrom. You know, and so I think that the physicians 
need to be thinking about this when they are doing informed 
consent with patients about medications. But the other part of 
it is that the doctors need to be thinking about when they are 
prescribing making sure that they are reviewing the whole of 
the med list and for the pharmacists to be doing the same thing 
as----
    Mr. Bucshon. Yes, I have seen patients on 20 medicines 
before.
    Dr. Nordstrom. Exactly.
    Mr. Bucshon. Honestly, it is pretty routine. And Buddy, who 
is a pharmacist, will tell you that is the case. So do we 
have--and you were talking about just THC, but do we have 
laboratory tests for drug, other non-THC drugs like opioids 
that can hold up in court as it relates to impairment?
    Dr. Nordstrom. Well, certainly we have----
    Mr. Bucshon. Unless you have a zero tolerance. I mean, if 
you have an opioid and the law is it is zero.
    Dr. Nordstrom. And a zero tolerance. And there are per se 
standards for opioids in Nevada and Ohio, I believe, and I 
think those are the only two----
    Mr. Bucshon. But broadly we don't.
    Dr. Nordstrom. But broadly we really don't. And part of 
this is that there is not that same level of knowledge about 
what drug level in blood corresponds to----
    Mr. Bucshon. Yes. But we do have pharmacokinetics. Probably 
to get FDA approval, you are going to have to show human 
pharmacokinetics for an opioid, right?
    Dr. Nordstrom. Sure. Absolutely, sir.
    Mr. Bucshon. So, I mean, that may not necessarily have a 
direct correlation, though, with an impairment to a level which 
would make you dangerous.
    Dr. Nordstrom. Exactly. And I think that those----
    Mr. Bucshon. So how do we get to that? That is why this 
money is important, right? How do we get to that?
    Dr. Nordstrom. So I think part of it is doing those--having 
those tests be done where they look at specifically driver 
impairment at different blood level----
    Mr. Bucshon. How did we do it with alcohol? Did we actually 
have drivers and have them--I mean initially, way back.
    Dr. Nordstrom. There are standardized lab sort of 
experiments where you can be in a driving lab with lane 
excursion and things like that.
    Mr. Bucshon. That is what I am saying. Then you have people 
literally drink alcohol and----
    Dr. Nordstrom. Absolutely. The same methodology----
    Mr. Bucshon [continuing]. Measure their drug and test. So 
we don't do--we haven't done that for opioids, really?
    Dr. Nordstrom. Well, I mean, I don't think we----
    Mr. Bucshon. Or other drugs?
    Dr. Nordstrom. Not to the same extent that we have with 
alcohol where the blood level would----
    Mr. Bucshon. Correlate.
    Dr. Nordstrom [continuing]. Definitively correlate and hold 
up in court in such a way that it would meet standards.
    Mr. Bucshon. Yes. Yes, that is one of the things. And law 
enforcement are in a pretty tough spot.
    Dr. Nordstrom. Absolutely.
    Mr. Bucshon. Because they--the field sobriety tests may or 
may not hold up. And the reason I say that, I had a case in my 
district, again, where a 16-year-old girl was hit as a 
pedestrian and killed.
    Dr. Nordstrom. Oh, my God.
    Mr. Bucshon. And the driver in the field was obviously 
impaired, but the laboratory tests showed no alcohol, no 
opioids, and was probably THC, but ultimately they are still 
trying to--this was a couple years ago. They are still trying 
to prosecute that case. But there was a blood alcohol level of 
zero, no opioids, no benzos, but clearly failed the field 
sobriety test, probably on marijuana.
    Dr. Nordstrom. Oh, my Lord.
    Mr. Bucshon. And they have not been able to adjudicate that 
case because there is no standard. So anyway, that does happen. 
I yield back.
    Ms. Schakowsky. The gentleman yields back, and I recognize 
Mr. McNerney for 5 minutes for his questions.
    Mr. McNerney. Well, I thank the chair and I thank the 
witnesses this morning, very illuminating testimony. And I want 
to thank the ranking member for inviting me to colead the 
Impaired Driving Study Act. I have thought a lot about this 
issue, actually.
    And I am going to sort of follow up on Mr. Bucshon. Mr. 
Nordstrom, can you envision a field impairment test that tests 
manual dexterity that can hold up in court?
    Dr. Nordstrom. Yes, sir. I mean, I think that with the 
standard field sobriety test we can get to a point where the 
officer, especially if it is a drug recognition officer, can 
really correlate then what they are seeing in terms of a 
performance decrement to a specific drug or a class of drugs. 
So I think we could get there.
    Mr. McNerney. And it would hold up in court?
    Dr. Nordstrom. Ideally, sir, yes.
    Mr. McNerney. OK, thank you. How would NHTSA conducting 
such a study as proposed in our legislation help us to reduce 
the number of casualties resulting from alcohol-impaired and 
other impaired driving?
    Dr. Nordstrom. Well, I think, sir, that if we have the 
opportunity to get people on their first offense and we can 
really identify what is going on, what they have been using, 
and then come up with specific targeted plans for how to 
intervene to address the underlying causes of the behavior, 
then it could potentially correct the problem later on so that 
there aren't multiple reoffenses.
    Mr. McNerney. I mean, it is my impression that reoffenses 
are really the dangerous incidents.
    Dr. Nordstrom. That is, you know, the highest sort of risk 
are those people that have very high blood alcohol levels, you 
know, above 0.15. The multiple reoffenders and the polyusers, 
those people account for about 70 percent of the DUI deaths, so 
that those really high-risk people are the ones that we need to 
be focusing on.
    Mr. McNerney. Well, thanks. What are some of the things 
that would be helpful for NHTSA to examine in conducting the 
study?
    Dr. Nordstrom. So I think that there are a number of 
things, but I think really being able to get to the point where 
we can meet the sort of standards, like the Daubert standards 
for expert testimony. And so that is going to take a 
significant amount of kind of work to be able to correlate what 
we are seeing in terms of performance decrements so that, when 
an expert goes into court and says that they have noticed that 
this is, you know, what they have observed, that it can hold up 
to rigorous cross examination so that the jury can have 
confidence that there actually was a deficit there.
    Mr. McNerney. So there is really opportunity for 
improvement in impaired driving?
    Dr. Nordstrom. Yes, sir.
    Mr. McNerney. Thank you. Thank you.
    Ms. Chase, I am going to talk a little bit about 
cybersecurity issues with regard to all the safety. Today's 
cars really are computers on wheels, and they can be hacked. 
There was an incident in 2015 where two white hat hackers 
cybercommandeered a Jeep Grand Cherokee, and so that has caused 
some change in the rules. As cars become increasingly 
interconnected, are you concerned that cybersecurity could pose 
a threat to safety?
    Ms. Chase. We are absolutely concerned about hacking and 
threats to cars as they become more and more computerized, and 
there needs to be some Federal action on this to protect both 
the people in the car and all of us who are surrounding, 
including pedestrians, bicyclists, and other road users.
    Mr. McNerney. But what steps are the automobile industry 
now taking to help prevent that?
    Ms. Chase. I can't speak to what the auto industry is doing 
right now, but what I can offer is that there should be some 
Federal requirements that cars are not able to be hacked to the 
best of the ability of the intelligence that is available now.
    Mr. McNerney. So is NHTSA taking steps?
    Ms. Chase. Not to my understanding.
    Mr. McNerney. So then it is kind of up to Congress to do 
something?
    Ms. Chase. I would urge Congress to take steps to move this 
along.
    Mr. McNerney. OK. I thank the witnesses, and I yield back.
    Ms. Schakowsky. The gentleman yields back, and now I 
recognize Mr. Carter for 5 minutes.
    Mr. Carter. Thank you, Madam Chair, and thank all of you 
for being here, very important information.
    Mr. Nordstrom, as Dr. Bucshon alluded to earlier, currently 
I am the only pharmacist serving in Congress. And this is 
extremely important to me, particularly as it relates to 
medications and how they are impairing people, and particularly 
when they are operating machinery, especially cars and trucks 
and that type of thing.
    Do you see this on the rise? Do you see a rise in the rate 
of drug-impaired driving?
    Dr. Nordstrom. Yes, sir, absolutely. That, you know, the 
National Roadside Survey found that 22 percent of drivers 
tested positive for illegal, prescription, or over-the-counter 
medication.
    Mr. Carter. Now, illegal prescription, are these 
prescriptions----
    Dr. Nordstrom. Illegal, comma, prescription, comma, or 
over-the-counter medication.
    Mr. Carter. So they were prescribed to them?
    Dr. Nordstrom. Some of the time. Yes, sir.
    Mr. Carter. OK. Well, OK. Let's just assume they were 
prescribed for them and they were taking them like they were 
supposed to be, but still they shouldn't have been behind the 
wheel and using these medications.
    Dr. Nordstrom. I mean, absolutely that happens.
    Mr. Carter. OK. And any idea of any factors that led to 
this increase or that have led to an increase? I mean----
    Dr. Nordstrom. You know, sir, I don't need to tell a 
pharmacist how much more medication is being consumed in this 
country----
    Mr. Carter. Right.
    Dr. Nordstrom [continuing]. You know, I mean, when it comes 
to opioids, we know we are 4 percent of the world population 
and we consume about 80 percent of the world's opioids, right. 
More and more, people are taking medication and they are doing 
all kinds of things, including driving, you know, and so there 
is certainly more of that happening.
    Mr. Carter. Outside of opioids and marijuana, any other 
particular medication, any other particular class of 
medications that you see?
    Dr. Nordstrom. No, you know, I mean, obviously when we are 
talking about medications, the other things that we would worry 
about are benzodiazepines and other sedative hypnotics. That 
could certainly impair judgment and performance.
    Mr. Carter. Let me ask you specifically about marijuana. In 
full disclosure, I am not a fan. I am absolutely, adamantly 
opposed to the recreational use of marijuana. Nevertheless, I 
understand there are States that have legalized it. Do you see 
an increase in impaired driving in those States?
    Dr. Nordstrom. From the data that we have seen coming out 
of--especially Washington has done a really incredible job 
tracking their data, and it is one of the things that we would 
really encourage States to do is to look at Washington's 
example of measuring so that they can see----
    Mr. Carter. So how are they measuring?
    Dr. Nordstrom. So what Washington actually did is they went 
back and they looked at blood samples from before they 
legalized for different crashes and cases so that they could 
see what happened pre and post. And, you know, they have seen 
an increase, and I think it is just very important that other 
States as they contemplate legalizing that they think about 
doing that kind of rigorous measurement, so that they can see 
what is happening after they make a change in policy so that 
they know then how they are going to respond.
    Mr. Carter. Are there any tests out there? I mean, you 
know, we had a Breathalyzer and we can test for alcohol. What 
about for marijuana? I mean, are there any--I am not familiar 
with it. Georgia is not--it is not legal yet in Georgia, and I 
hope it won't be. But nevertheless, I am just not familiar with 
it.
    Dr. Nordstrom. So there are oral fluid assays that can be 
done, and there are portable oral fluid kits that can be done 
at the roadside that look specifically for THC and active THC 
metabolites. And that is about as--apart from doing bloodwork 
and then GCMS, that is what we have got right now.
    Mr. Carter. OK. I don't mean to be redundant, and I came in 
on the tail end of Dr. Bucshon's questions, but in your 
testimony you mentioned there is a huge opportunity for 
collaboration with healthcare practitioners and pharmacists on 
this issue. What do you see as the collaborative process, and 
how can pharmacists play a role?
    Dr. Nordstrom. Well, I certainly think that the 
communication between physicians and pharmacists could always 
be better. You know that as an addiction psychiatrist I have 
great relationships with our pharmacists, because frequently 
people would act one way in front of me and then when they are 
in a retail setting that they would act in a very different 
way, and they forgot that there was a licensed healthcare 
professional who is still assessing them.
    So we would get very, very good information back from the 
pharmacists, and because we had them sign the HIPAA releases, 
we could speak with pharmacists. And so, I mean, I think that 
that kind of communication, though, needs to really happen 
between prescribers, so not just physicians but any prescriber, 
and the pharmacist on the dispensing end to make sure that if--
because if I made an oversight or an omission, the pharmacist 
would catch it, would call me, and we made sure that the 
communication was tight.
    Mr. Carter. Great. Well, and, you know, just when I was 
still practicing pharmacy, you know, it was routine when I 
would dispense the medication, I would tell them, ``Look, this 
is going to make you drowsy. Be careful if you are driving.'' I 
mean that was just routine of what we did for patient 
counseling.
    Dr. Nordstrom. And I think that is the kind of thing we 
need to be doing more of, sir.
    Mr. Carter. Right, OK. Well, thank you very much, and I 
yield back.
    Ms. Schakowsky. I now recognize Congresswoman Castor for 5 
minutes.
    Ms. Castor. Well, thank you, Madam Chair, for calling this 
hearing on how we make our cars safer, and I want to thank the 
witnesses for sharing your expert points of view. And, Ms. 
Livingston, thank you for sharing your very personal story of 
your wonderful parents. I am sorry.
    You know, automobile defects were identified over 10 years 
ago. Ten years ago the Society of Automotive Engineers 
identified the dangers posed by keyless ignition systems, two 
years later NHTSA proposed a rule that would require 
automobiles to provide supplementary warnings when a driver 
inadvertently left a keyless ignition vehicle running, and yet 
8 years later, now there is still no final rule.
    The result has been at least 21 documented cases of people 
dying from carbon monoxide poisoning after accidentally leaving 
a keyless ignition vehicle running. I mean, automobile defects 
that were identified over 10 years ago should not be causing 
deaths in 2019.
    Ms. Livingston, the vehicle that killed your parents was a 
2017 Toyota Avalon, which was manufactured several years after 
automakers identified carbon monoxide hazards tied to keyless 
ignition systems and several years after NHTSA proposed 
standards to reduce those risks. Do you believe that the auto 
industry failed to protect your parents? Do you believe that 
NHTSA failed to protect your parents?
    Ms. Livingston. Absolutely.
    Ms. Castor. Ms. Chase, I am concerned that NHTSA's hands-
off approach to addressing safety issues like keyless ignition 
systems is costing lives. Why--you know, 10 years--why has 
NHTSA not finalized the rule to protect the public? I mean, it 
is going to take an act of Congress now to do this? But they 
have had all of the evidence. How can we ensure that NHTSA 
proactively identifies and addresses these sorts of automobile 
safety issues?
    Ms. Chase. You have identified the issue perfectly. And the 
inaction at the agency is why the PARK IT Act and other pieces 
of legislation that we have discussed today are critical, 
because it is not moving and people are dying. And there is 
technology that is existent and inexpensive that could be put 
in all cars today.
    So I urge this subcommittee then to move these bills 
through, and let's get them to the floor and start saving 
lives.
    Ms. Castor. So that is the PARK IT Act, and hopefully it 
will be moving. On the Hot Cars Act, a friend of mine--I went 
grocery shopping with a friend of mine recently. They have a 
new vehicle and they--you know, this is Tampa, Florida, we are 
talking about--they wanted to make another stop at a different 
store and I said, ``But you can't. Your groceries are going to 
bake, and they are going to be ruined.''
    And they said, ``No, look at this.'' In this vehicle there 
is--the temperature will, the air conditioning will come on as 
it is parked if the temperature in the car goes up too high. Is 
that one of the answers?
    Ms. Chase. That is one of the answers. So what is needed is 
a detection system, so there must have been in whatever vehicle 
that was a detection system that----
    Ms. Castor. If it hit a certain temperature internally then 
the a/c would come on for----
    Ms. Chase. So that is one solution. So it has the detection 
system, it kicks in the a/c, or it could also kick in the horn 
beeping, or, you know, you get a notification on your phone. 
There are a number of different ways that this problem can be 
solved.
    And what is so critical about the Hot Cars bill is that it 
doesn't mandate one over the other, it just mandates that the 
problem be solved. And there are different ways. There are 
different innovators that can solve this problem, including the 
one that you just mentioned.
    Ms. Castor. And we were just talking about groceries, but 
children are dying.
    Ms. Chase. Children are dying, animals are dying, and it is 
unnecessary.
    Ms. Castor. And again, it looks like it is going to take an 
act of Congress when it shouldn't. The agency should be more 
proactive.
    Ms. Chase. I agree with you.
    Ms. Castor. A person's gender should not determine whether 
he or she is injured or killed in an automobile crash, but 
researchers have found that women are 73 percent more likely to 
die or suffer severe injuries in a car crash than a man. And a 
study from the University of Virginia suggests that female 
crash dummies may contribute to this troubling trend.
    According to the study, female crash dummies do not 
appropriately account for the size and weight of an average 
woman. Inaccurate test dummies can lead to ineffective safety 
measures. Are you aware of this study, and what factors do you 
think are contributing to the discrepancy here between men and 
women and car crashes?
    Ms. Chase. In honesty, I have read the highlights of the 
study but not the extensive study. Some of my staff have. But I 
am aware of the problem, and there needs to be more different 
types of crash dummies that are more reflective of people's 
body sizes and weights so that the equipment that is put into 
cars will be responsive and protect them as they should.
    Ms. Castor. Thank you very much.
    And I hope, Madam Chair, you will look into this with me. 
Thank you.
    Ms. Schakowsky. Fascinating questions and answers, or 
things that need to be answered.
    I now recognize Congresswoman Kelly for 5 minutes of 
questioning.
    Ms. Kelly. Thank you, Madam Chair. And I want to thank you 
and the ranking member for holding this hearing. It is so 
important. I too have left my car running, and both times--one 
time I was trying to make the train and when I came back, I 
wondered why my gas was so low. And the second time I had 
actually parked it under Cook County's building and left the 
car running all day, so I can relate to what you guys are 
saying.
    Ms. Livingston, you made a comment, ``Thanks for having the 
hearing, and you know it is a busy day today,'' but I could say 
on behalf of this committee, we are never too busy to save 
lives. That is what this committee is about, so thank you for 
being here.
    Safety should be a standard feature of every new vehicle, 
not an add-on that a consumer has to pay for. The level of 
safety in your car should not depend on the size of your 
wallet. But many existing and emerging safety technologies, 
such as automatic emergency brakes, where automatic braking, 
blind spot detection, and lane departure warnings are sold as 
luxury items which must be purchased for an extra fee or as 
part of an expensive add-on package, these additional costs may 
put these lifesaving technologies out of reach for many 
Americans. Automatic emergency brakes are not the same as 
leather seats. Lane departure warnings are not the same as a 
Bluetooth-enabled stereo.
    Do you believe that selling safety-enhancing features such 
as backseat warnings or a keyless ignition override as part of 
accessory packages with a bunch of other gear like luxury floor 
mats and wheel locks discourages consumers from buying cars 
with crucial safety features? Any of you can answer.
    Ms. Chase. I could not have said it better than you just 
did that these safety features should be in all new vehicles, 
and they should not be packaged with a moon roof or a heated 
steering wheel. They should be--these are proven technologies 
to reduce crashes, save lives, and prevent injuries. The only 
reason that they are not being put into all new cars now is 
that more money can be made from selling them as luxury 
packages, or they are in some high-end vehicles that not 
everyone can afford.
    Ms. Kelly. Sure.
    Either one of you, any comments?
    Ms. Livingston. I totally agree with you. These are things 
that are readily available, should be in every car, and we do 
need an act of Congress. That is just the way it is. And the 
car industries have proven over more than a decade that for the 
keyless ignition that they haven't voluntarily put these 
protections in, and some say that it could be only 60 cents a 
car in that particular case. But to call things that are for 
safety a luxury is just wrong.
    Dr. Nordstrom. Well, ma'am, it is a bit outside my lane as 
the Director of Responsibility.org, but certainly, I mean, as a 
consumer I couldn't find fault with a single word that has been 
said here.
    Ms. Kelly. And, in the panel's opinion, are there certain 
advanced safety technologies that should no longer be an option 
but should be standard on all vehicles?
    Ms. Chase. Obviously, the hot cars technology and the 
cutoff switch for the keyless ignition switch, additionally 
automatic emergency braking, lane departure warning, blind spot 
detection, just to name a few that have been proven by the 
Insurance Institute for Highway Safety to reduce crashes.
    We know that these are effective. They should be in all 
cars as standard equipment, and there should be performance 
standards for them, so that if somebody calls something a 
particular name, we know that it will respond the way that it 
is expected to.
    Ms. Kelly. OK, going back to watching people's pocketbooks, 
what do you think can be done to retrofit all cars? Everybody 
can't afford to buy a new car or, you know, everybody can't 
afford some of the luxury cars.
    Ms. Chase. I think there needs to be some more research and 
studies done on how retrofits can be effected. I can say, in 
terms of the hot cars, I have seen some aftermarket products. I 
don't know the verification of them, but I have seen them.
    And so, the problem therein, though, is that no one really 
thinks that they are going to leave their child or that their 
child is going to climb in, so that would put it incumbent upon 
the consumer to go out and buy the aftermarket product. That is 
why it needs to be standard, so that people, you know, have 
that safety insurance without even thinking about it.
    Ms. Livingston. I just wanted to mention on the keyless 
ignition on how both GM and Ford embraced going in and making a 
change and did a recall so that the older vehicles would have 
it put in. It is possible to do. Technically, I think Toyota's 
announcement that the new cars will have it is great. However, 
there are a lot of cars out there and they will be on the road 
7 or 8 years, and I think a recall is in order for that so more 
people don't die.
    Ms. Kelly. Good idea.
    Madam Chair, I yield back.
    Ms. Schakowsky. The gentlelady yields back, and I now 
recognize Mr. Rush for 5 minutes.
    Mr. Rush. I want to thank you, Madam Chair, and the ranking 
member for conducting this hearing. It has been fascinating to 
witness, and I certainly want to join with all my colleagues in 
commending Ms. Livingston, whose courage to take her pain and 
turn it into a pursuit of well-being for all Americans is 
totally commendable, and we certainly want to express our 
appreciation to you. You didn't have to do it, but you are 
doing it, and we thank you so much for all your work and your 
effort.
    Ms. Chase, in your testimony you discussed the role that 
technology can play in increasing vehicle and pedestrian 
safety. Specifically, technologies like the AEB, the Automatic 
Emergency Braking, are important factors in decreasing crash-
related injuries. That is why I was pleased to see the 2016 
voluntary agreement implemented in AEB from 20 vehicle 
manufacturers.
    In one instance, NHTSA has announced that it will 
accelerate its research into advanced AEB systems that include 
pedestrian and bicyclist application. They have not done 
enough. And that is why this morning I, along with seven of my 
Democratic colleagues on this subcommittee, sent a letter to 
NHTSA asking for an update on implementation of this advanced 
technology.
    That being said, can you please expand upon why this 
technology is so important to pedestrian and bicyclist safety 
and what other technologies should also be considered?
    Ms. Chase. Congressman, thank you for your leadership, and 
I look forward to reading your letter after the hearing is 
concluded.
    Mr. Rush. Right.
    Ms. Chase. AEB is an essential piece of technology that 
should be in all cars because the problems of impairments like 
we discussed, and distraction among others, is prevalent in our 
motoring public. And AEB, if someone is distracted or impaired, 
will detect is it object or a person in front--hopefully a 
person--that is an advanced AEB system--is in front of them, 
and if a person doesn't brake, it will brake for them.
    I would just like to make a side note about the voluntary 
agreement. While it may seem like a step forward, we really 
would like to see a minimum performance standard, because with 
a voluntary agreement a company can walk away from it. A 
company can also call something a system, name it something, 
but we don't know how it truly performs.
    So we would like to see the added step of it first being 
required as a standard equipment and then also there being a 
minimum performance standard for the technology.
    Mr. Rush. Thank you.
    Congresswoman Kelly asked a lot of questions that I want to 
pursue. Most of my constituents don't have new cars. Most of 
them have used cars. And 5 years down the road, new cars that 
are online that will be purchased today and tomorrow will also 
be used cars, and cars that may or may not have this advanced 
technology. And I understand that there could possibly be 
devices that will be marketed for to deal with some of these 
issues that we have been discussing.
    But what I would like you to inform this committee about is 
what role can the Congress play in addressing the issues of 
some of the older model cars in terms of how can we use this 
legislative perspective that we have to address the issues of 
older cars that are still a threat to life, limb, and safety.
    Ms. Chase. As the proud owner of a 15-year-old minivan, I 
hear you. And what I would encourage Congress to do is to find 
out what NHTSA is doing on this issue. And then also I would 
like to work with you and your staff to see if there are any 
legislative solutions to this problem, because it is a problem. 
There are a lot of used or secondhand vehicles on the road, and 
they should not be, you know, they should have the advances 
that are available in new cars. So I look forward to working 
with you to see where we can go on this.
    Mr. Rush. Thank you. Madam Chair, I yield back.
    Ms. Schakowsky. I want to thank all of the witnesses. This 
was just really wonderful testimony today. Thank you for your 
participation. There is a lot of followup that we need to do.
    I want to remind Members that, pursuant to committee rules, 
they have 10 business days to submit additional questions for 
the record to be answered by witnesses who have appeared. And I 
want to ask each of the witnesses to, please, if you get 
questions to respond as promptly as possible to those 
questions.
    At this time, the--let's see. Before that--so these are 
things I would ask unanimous consent to insert into the record. 
Where are we? OK. We have a letter from the College Church--oh, 
I am sorry. OK, we have a letter from Colleen Church, advisor 
and counsel to Responsibility.org, a letter from the daughter 
of a carbon monoxide poisoning victim, a letter from the son of 
a carbon monoxide poisoning victim, a letter from the American 
Property Casualty Insurance Association. Is that it? So, 
without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Schakowsky. And the committee is now adjourned.
    [Whereupon, at 12:14 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

                                 <all>
</pre></body></html>
